Office of
Inspector
General
Semiannual
Report to
the Congress
April 1, 1988 to
September 3D, 1988



November 1, 1988
FOREWORD
This report, submitted pursuant to the Inspector Gen-
eral Act of 1978, summarizes Office of Inspector General
(OIG) activity over the 6-month period ending Septem-
ber 30, 1988. It is my sixth Report to the Congress.
In previous reports, I have described our long-term pro-
gram to revitalize the OIG. This program-involving
additional staffing, better training, improved logistical
support, and expanded use of computers-has been
made possible by the strong support this office has re-
ceived from the Congress, the Office of Management and
Budget, and GSA management.
Now, at the close of Fiscal Year 1988, the fruits of our ef-
forts are becoming apparent. In comparison with Fiscal
Year 1987, we issued more audit reports, recommended
more audit savings, and obtained more successful pros-
ecutions and settlements. Moreover, these last six
months saw especially high levels of recommended au-
dit savings and investigative cases accepted for prose-
cution-facts that portend well for OIG results in future
reporting periods.
I commend this report to your reading. It reflects an ac-
tive OIG presence that is having a significant, positive
impact on the efficiency, effectiveness, and integrity of
the General Services Administration.




WILLIAM R. BARTON
Inspector General


October 31, 1988
INTRODUCTION AND OVERVIEW

A. Introduction                                                response to significant OIG audits and investigations,
                                                               the Department of Justice:
This report, submitted pursuant to the Inspector Gen-            •   Reached a $1,050,000 civil fraud settlement with a
eral Act of 1978, chronicles the activities of the General           furniture supplier.
Services Administration (GSA) Office of Inspector Gen-
eral (OIG) between April 1, 1988 and September 30, 1988.         •   Entered into a civil settlement agreement with a
It is the twentieth Report to the Congress since the ap-             copying equipment supply firm.
pointment of GSA's first Inspector General.                      •   Successfully prosecuted a chemical supply com-
                                                                     pany, and its president, for mail fraud.
                                                               Also, an internal review advised management of the need
B. Overview                                                    to strengthen controls over fleet management operations.
                                                               Detailed information on these and other activities is pre-
The following paragraphs provide an overview of OIG au-
dit and investigative coverage of the Agency, as well as a     sented in Section III.
summary of OIG accomplishments. In addition, this sec-
tion highlights significant OIG prevention activities.



1. Audit and Investigative Coverage of GSA                     Information Resources Management Service
   Programs                                                    The ~IG's coverage of the Information Resources Man-
Audit and investigative coverage of GSA programs iden-         agement Service (IRMS) continued to focus on its con-
                                                               tracting function, particularly the multiple award
tified a number of opportunities for more efficient and ef-
                                                               schedule program. As a result of the cooperative efforts
fective Agency operations. Overall, this report reflects a
                                                               of IRMS and the OIG, $7.2 mIllion was avoided on a pro-
strong commitment on the part of GSA management to
                                                               curement of automated data processing software conver-
make those improvements.
                                                               sion services.
                                                               In addition, OIG audit and investigative effort resulted
                                                               in a $900,938 civil settlement agreement with an
Public Buildings Service                                       IRMS computer graphics equipment contractor. The
                                                               full amount of the settlement has been paid to the
This period, 39 percent of the OIG audit reports issued        Government.
addressed Public Buildings Service (PBS) programs.
These audits assisted PBS managers in addressing issues        Detailed information on these and other activities is pre-
such as:                                                       sented in Section IV
  •   Revision of a proposed building purchase contract
      that appeared to violate Federal statute.
  •   Recovering overpayments for rent.
  •   Unduly restrictive requirements in solicitations for     Other GSA Coverage
      leased space.
  •   Potential cost avoidances of $6.3 million on a           The OIG issued 33 internal reviews evaluating organi-
      claim.                                                   zations such as the Office of Administration, the Federal
                                                               Property Resources Service, and the Office of the Comp-
In addition, an OIG investigation resulted in the success-     troller. These reviews addressed such diverse areas as
ful prosecution of an official of a fire extinguisher repair   payment procedures, consultant services contracts, bill-
firm, and a consultant to the same firm, for defrauding        ings to other Federal agencies, real property disposal, and
the Government.                                                imprest funds.
Detailed information on these and other activities is pre-     An especially noteworthy review advised management of
sented in Section II.                                          the need to enhance systems edits for the Credit Card
                                                               Accounts Payable System to prevent credit card abuse.
                                                               In addition, 16 imprest fund reviews advised manage-
                                                               ment of the need to improve internal controls and physi-
Federal Supply Service                                         cal safeguards.
OIG coverage of the Federal Supply Service (FSS) primar-       Detailed information on these and other activities is pre-
ily focused on multiple award schedule contracting. In         sented in Section V
2. Overall OIG Accomplishments                                     •     238 legislative initiatives and 97 regulations and
                                                                         directives reviewed.
OIG accomplishments this period included:                        Management commitments to more efficiently use re-
     •     484 audit reports;                                    sources, management commitments to recover funds,
                                                                 voluntary recoveries, court-ordered recoveries, and inves-
     •     $177,588,899 in recommendations for more              tigative recoveries totaled $66,694,214 during the second
           efficient use of resources and in recovery            half of FY 1988. This represented a return of $5.94 for
           recommenda tions;                                     every $1 budgeted to OIG operations during the 6-month
     •     $61,258,591 in management commitments to more         period.
           efficiently use resources;                            Detailed information on these and other activities is pre-
     GIl   $5,435,623 in management commitments to re-           sented in Sections VI and VII.
           cover funds, voluntary recoveries, and court-
           ordered and investigative recoveries;
     •     218 investigative cases opened and 190 closed;        3. Prevention Activities
     •     25 case referrals accepted for criminal prosecution   As detailed in Section VIII, the OIG's program to prevent
           and 4 case referrals accepted for civil litigation;   fraud, waste, and mismanagement encompasses a wide
                                                                 variety of activities.
     •     31 indictmentslinformations on criminal referrals;
                                                                 Highlights of our efforts during the period included:
     •     27 successful criminal prosecutions;
     •     8 settlements and 2 civil fraud complaints;             •     Completion of 45 preaward advisory reviews of
                                                                         leases involving annual rentals in excess of
     •     27 contractor suspensions and 33 contractor                   $200,000.
           debarments;
                                                                   •     Integrity Awareness Briefings for 388 GSA
     •     21 reprimands, 8 suspensions, and 5 terminations              employees.
           of GSA employees;
                                                                   GIl   Receipt of 272 Hotline calls/letters and referral of
     •     11 Inspector General subpoenas; and                           68 of these complaints for further action.




ii
TABLE OF CONTENTS

                                                                    Page                                                                     Page
INTRODUCTION AND OVERVIEW ................ .                               SECTION VI-STATISTICAL SUMMARY OF
                                                                           OlG ACCOMPLISHMENTS.. .............. ................              17
REPORTING REQUIREMENTS..... .... ...... ..... ....                  iv       A. Ole Accomplishments................................           17
SECTION I-ORGANIZATION, STAFFING,                                            B. Summary Statistics.....................................       18
AND BUDGET ......................... .............. .............    1     SECTION VII-REVIEW OF LEGISLATION
  A. Organization ...............................................    1     AND REGULATIONS.........................................           25
  B. Office Locations..........................................      1       A. Legisla tion/Regula tions Reviewed..............              25
  C. Staffing and Budget.....................................        1       B. Significant Comments ................................         25
SECTION II - PUBLIC BUILDINGS SERVICE..                             2      SECTION VIII-OTHER OlG ACTIVITIES .....                            26
  A. Overview of Ole Activity...........................            2
                                                                             A. Ole Prevention Program.............................           26
  B. Significant Audits and Investigations ..... ....               2        B. Projects Sponsored by the PCIE ..................             27
  C. Significant Preaward Audits .......................            3
  D. Statistical Highlights..................................       4
  E. Significant Audits From Prior Reports .......                  4
                                                                           APPENDICES
SECTION IIi-FEDERAL SUPPIX SERVICE.....                              7
  A. Overview of Ole Activity...........................             7     APPENDIX I-AUDIT REPORT REGISTER .....                             30
  B. Significant Audits and Investigations .........                 7
                                                                           APPENDIX II-DELINQUENT DEBTS.............                          49
  C. Significant Preaward Audits .......................             8
  D. Statistical Highlights..................................       10     APPENDIX III-SUMMARY OF OlG PERFOR-
  E. Significant Audits From Prior Reports .......                  10     MANCE DURING FISCAL YEAR 1988 .............                        50
SECTION IV-INFORMATION RESOURCES
MANAGEMENT SERVICE ... .......... ........ ............             11
  A. Overview of Ole Activity...........................            11     LIST OF TABLES
  B. Significant Audits and Investigations .........                11
                                                                           1. Summary of Ole Audits.................................          18
  C. Significant Preaward Audits .......................            11
                                                                           2.   Resolution of Ole Audits ...............................      19
  D. Statistical Highlights..................................       12
                                                                           3.   Resolution Decisions on Ole Audits .............              20
  E. Significant Audits From Prior Reports .......                  12
                                                                           4.   Summary of Contract Audit Settlements.......                  21
SECTION V-OTHER GSA COVERAGE ..........                             14     5.   Investigative Workload....................................    22
  A. Overview of Ole Activity...........................            14     6.   Distribution of Cases Opened This Period....                  22
  B. Significant Audits .......................................     14     7.   Summary of Ole Subject Referrals ................             23
  C. Statistical Highlights..................................       15     8.   Summary of Criminal and Civil Actions.......                  24
  D. Significant Audits From Prior Reports .......                  15     9.   Criminal and Civil Recoveries .......................         24




                                                                                                                                               111
REPORTING REQUIREMENTS
The table below cross-references the reporting require-                                No. 96-829 relative to the 1980 Supplemental Appropria-
ments prescribed by the Inspector General Act of 1978 to                               tions and Rescission Bill is also cross-referenced to the
the specific pages where they are addressed. The infor-                                appropriate page of the report.
mation requested by the Congress in Senate Report



                                                           Source                                                                       Page
     Inspector General Act
     1. Section 4(a)(2)-Review of Legislation and Regulations ...................................... .                                     25
     2. Section 5(a)(1 )-Significant Problems, Abuses, and Deficiencies ...................... ..                                     2, 7, 11, 14
     3. Section 5(a)(2)-Recommendations With Respect to Significant Problems,
          Abuses, and Deficiencies ................................................................................ ..                2, 7, 11, 14
     4. Section 5(a)(3)-Prior Recommendations Not Yet Implemented ........................ ..                                        4, 10, 12, 15
     5. Section 5(a)(4)-Matters Referred to Prosecutive Authorities ............................ ..                                        23
     6. Sections 5(a)(5) and 6(b)(2)-Summary of Instances Where Information Was
          Refused ............................................................................................................ .   None This Period
     7. Section 5(a)(6)-List of Audit Reports .................................................................. .                       30
     Senate Report No. 96-829
     1. Resolution of Audits ...............................................................................................              19
     2. Delinquent Debts ...................................................................................................              49




iv
SECTION I-ORGANIZATION, STAFFING,
ANDBUDGET

Pursuant to the Inspector General Act of 1978, an Office
of Inspector General (OIG) was established within the
                                                             B. Office Locations
General Services Administration (GSA) on October 1,          The OIG is headquartered in Washington, DC, at GSA's
1978. As currently configured, the OIG consists of four      Central Office building. Field audit and investigations of-
offices that function cooperatively to perform the mis-      fices are maintained in the following cities: Boston, New
sions legislated by the Congress.                            York, Philadelphia, Atlanta, Chicago, Kansas City, Fort
                                                             Worth, San Francisco, and Washington, DC. In addition,
                                                             the Office of Audits has a resident office in Auburn,
A. Organization                                              Washington. The Office of Investigations has resident of-
                                                             fices in Auburn, Cleveland, St. Louis, and Los Angeles.
The OIG utilizes a functional organizational structure to
provide nationwide coverage of GSA programs and activ-
ities. It consists of:
  •   The Office of Audits, a multidisciplinary unit
      staffed with financial and technical experts who
      provide comprehensive coverage of GSA operations
      (internal or management audits) as well as GSA
      contractors (external or contract audits). Headquar-
      ters directs and coordinates the audit program,
                                                             c.    Staffing and Budget
      which is performed by the twelve field audit offices
      and one resident office.                               The OIG's approved Fiscal Year (FY) 1988 budget was ap-
                                                             proximately $24.3 million, an increase of $2.6 million
  •   The Office of Investigations, an investigative unit    over FY 1987. At the end of FY 1988, the OIG had obli-
      that manages a nationwide program to prevent and       gated $24 million or 98.8 percent of its FY 1988 funds.
      detect illegal and/or improper activities involving
                                                             The orG started FY 1988 with a total on-board strength
      GSA programs, personnel, and operations. Opera-
                                                             of 422 full-time employees. At the end of the semiannual
      tions officers at headquarters coordinate and over-
      see the investigative activity of nine field           period, the OIG's full-time staff totaled 415. During the
                                                             year, the OIG emphasized the training needs of entry-
      investigations offices and four resident offices.
                                                             level auditors and investigators, primarily through in-
  •   The Office of Counsel to the Inspector General, an     house training. In addition, the OIG completed a series of
      in-house legal staff that provides opinions and ad-    team building programs for key management personnel.
      vice on matters under OIG review. These attorneys
                                                             The OIG's approved FY 1989 budget authority is $25 mil-
      also manage the civil referral system, formulate
      OIG comments on existing and proposed legisla-         lion, which is $1. 7 million less than originally requested
      tion, and assist in litigation.                        by the OIG and $400,000 less than requested by the Pres-
                                                             ident's budget. This reduction, coupled with the antici-
  •   The Office of Policy, Plans, and Management Sys-       pated need to absorb the 4.1 percent pay raise, effective
      tems, a centralized unit that oversees the develop-    January 1, 1989, will have significant consequences. We
      ment of OIG policies and strategic plans,              believe that the OIG will have to scale back its long-range
      formulates OIG comments on proposed regula-            ADP plan and, although a personnel ceiling of 452 full-
      tions and GSA policy issuances, provides data sys-     time equivalent positions is established, will only be able
      tems support, and handles budgetary,                   to support approximately 425 full-time equivalent posi-
      administrative, and personnel matters.                 tions during the year.




                                                                                                                       1
SECTION II-PUBLIC BUILDINGS SERVICE

The Public Buildings Service (PBS) manages much of the         Proposed Building Purchase Agreement
Federal Government's real estate assets nationwide. Its        Questioned
responsibilities range from constructing, purchasing,
and leasing space for Government use to maintaining            This period, the OIG continued to assess purchases being
and protecting that space. In the second half of FY 1988,      made under GSA's Building Purchase Program. As part of
the total available funding authority of the Federal Build-    this effort, we evaluated the proposed contract for the
ings Fund was over $2.3 billion. During the same period,       purchase of an office building. Our review concluded that
PBS obligated over $1. 9 billion of these funds.               a contract provision concerning the financing of the pur-
                                                               chase may violate Federal statute, and would increase
                                                               debt expense.
                                                               We found that the purchase contract provided for pay-
                                                               ment to the seller for goods and/or services not yet
                                                               received. The purchase agreement required that
A. Overview of OIG Activity                                    $14.5 million of the purchase price be deposited into an
                                                               escrow account. This amount, plus the first $1 million in
This period, over 61 percent of the internal audit reports     interest earned by the escrow account, was to be used to
issued by the OIG addressed PBS programs and activities.       pay for engineering services and construction needed to
We presented findings relative to buildings purchases,         satisfy GSA life safety standards, and for subsequent ten-
leasing issues, repair and alteration projects, construc-      ant alterations. We concluded that this arrangement
tion projects, elevator maintenance, and buildings man-        would constitute an advance of public funds and, as such,
agement. Some of the more significant reviews assisted         a violation of Title 31 of the United States Code.
PBS managers in taking action relative to:
                                                               Further, the purchase agreement stated that the seller's
    "   Changing the financing arrangements for a build-       agent was entitled to all interest earned by the escrow ac-
        ing purchase in order to avoid possible violation of   count exceeding $1 million. Since the projected interest
        a Federal statute.                                     that would have been earned by the escrow account was
                                                               $2.3 million, the agent would have received $1.3 million
    •   Recovering overpayments for lease escalation.          without any obligation to provide additional goods or
    •   Modifying lease requirements that restrict             services.
        competition.                                           We also concluded that the Government would be in-
The OIG also issued 100 contract audit reports relative to     curring unnecessary debt expense by borrowing the
PBS programs, many evaluating construction claims,             $14.5 million when a viable alternative was available. For
change orders, proposals for architect and engineering         previous building purchases, GSA has held back funds at
services, and lease escalation proposals. In total, these      settlement to pay for work required on the buildings.
reports recommended cost avoidances and cost recover-          Holding back funds would save an estimated $1.5 million
ies of $22.7 million.                                          in Government borrowing expenses.
OIG investigators completed 76 cases involving PBS pro-        Our April 15, 1988 report recommended that the Re-
grams, operations, or employees. Of these cases, 36 per-       gional Administrator:
cent involved allegations of white collar crimes. Notably,       "   Postpone closing on the purchase contract until
a joint OIG and Defense Criminal Investigative Service               Regional Legal Counsel reevaluated the proposed
investigation resulted in the convictions, on fraud                  financing arrangement.
charges, of an official of a GSA fire extinguisher repair
and servicing firm and a consultant to the same firm.            •   Consider use of a hold back of funds in lieu of an es-
The company inflated costs, falsified test reports, and              crow agreement.
billed the Government for work never performed.
                                                               The Regional Administrator submitted responsive ac-
                                                               tion plans for implementing the report recommenda-
                                                               tions. Resolution was achieved on July 11, 1988.


                                                               Excessive Lease Payments
B. Significant Audits and
                                                               Based upon a request from a Real Estate Division Direc-
   Investigations                                              tor, the OIG reviewed escalation payments processed for
                                                               a lease. The review found that the lessor had received
This section summarizes significant internal audits and        $212,998 in excess escalation payments, apparently due
investigations dealing with PBS. Significant preaward          to a Realty Officer's misinterpretation of the lease's op-
contract audits are presented in Section C.                    erating cost escalation clause.

2
The escalation clause provides that increases in operat-       the location of space may unduly restrict competition in
ing expenses are calculated by comparing the costs in-         some leasing actions. For example, a leasing action for
curred during the last year of each three year escalation      25,000 square feet of office space resulted in only two
period to the costs incurred during the base (first) year of   buildings meeting location requirements, despite an ex-
the lease. Since the comparisons are always made to the        panded market survey that considered a 102 square mile
base year, escalation payments due for one period are ne-      area. Another leasing action, for 27,000 square feet of
gated by those determined to be due for the following pe-      space, used a market survey that encompassed the entire
riod. In this case, however, the Realty Officer made the       city, yet only two best and final offers were received by
payments due for the escalation period in effect and con-      GSA. In our opinion, in both cited instances, competi-
tinued to make the payments that had been due for prior        tion was limited because many properties, acceptable in
escalation periods.                                            all other ways, could not meet the QSFO location re-
                                                               quirements. These requirements provide that space out-
Our April 20, 1988 report recommended that the Assist-
                                                               side a city center neighborhood must be located in an
ant Regional Administrator, Public Buildings Service,
                                                               office, research, technology, or business park.
require that the Real Estate Division Director take ac-
tion to collect the $212,998 in overpayments for lease         Our May 19, 1988 report recommended that the Com-
escalation.                                                    missioner, Public Buildings Service, take action to aug-
                                                               ment the language in the QSFO to consider quality space
The Regional Administrator submitted responsive ac-            outside of a city center neighborhood that is not in an of-
tion plans for implementing the report recommenda-
                                                               fice park setting.
tions. Resolution was achieved on June 27, 1988.
                                                               The Commissioner submitted responsive action plans
                                                               for implementing the report recommendations. Resolu-
                                                               tion was achieved on July 25, 1988.
Fraud Convictions
On May 11, 1988, an official of a fire extinguisher repair
and servicing firm and a company consultant (who had
originally founded the company) were sentenced in U.S.         c.    Significant Preaward Audits
District Court after pleading guilty to conspiracy to de-
fraud the Government. The official was placed on proba-        The OIG's preaward audit program provides information
tion for five years, sent to a halfway house for one year,     to contracting officers for use in negotiating contracts.
and ordered to make restitution of $50,000. The consul-        The pre-decisional, advisory nature of preaward audits
tant was placed on probation for five years, with the first    distinguishes them from other audits.
year requiring electronically monitored home confine-
ment, and ordered to pay $300,000 in restitution. Both
subjects were also ordered to refrain from conducting
business with the Government during their periods of           $6.3 Million Recommended For Avoidance
probation.
                                                               At the request of a GSA contracting officer, the OIG au-
The sentencing stemmed from a joint GSA orG and De-            dited a claim for alleged damages due to Government-
fense Criminal Investigative Service investigation. The        caused delays on the construction of a Federal building.
investigation, initiated after receipt of an anonymous al-     The contractor alleged that Government project manage-
legation that the firm was defrauding the Government,          ment extended the contract work period by 134 days, re-
disclosed that the company inflated costs, falsified test      sulting in increased costs of $7,800,264.
reports, and billed the Government for work that was
                                                               The August 11, 1988 audit report advised the contracting
never performed.
                                                               officer that costs contained in the claim were either over-
Previously, another individual involved in the case en-        stated or unallowable. We questioned claimed costs in
tered into a pretrial diversion agreement, while one other     the following categories: extended site costs (direct labor,
participant pled guilty to a misdemeanor and was placed        material, and supervision), direct costs associated with
on unsupervised probation.                                     performance of tenant change orders, home office over-
                                                               head, and subcontractor costs. Based on these findings,
                                                               along with GSA technical evaluations, the auditors rec-
                                                               ommended a reduction of $6,279,265 in the claimed
Lease Requirements Restrict Competition                        amount.
The GSA Administrator established a goal to increase           We are awaiting the contracting officer's position on the
the quality of all space in the GSA inventory. In order to     questioned costs.
meet this goal in leased space, GSA developed a Quality
Solicitation For Offers (QSFO) that specifies both the at-
tributes needed in the building and the locations consid-
ered acceptable.                                               $975,104 Cost Avoidance
orG preaward reviews of proposed leases in one GSA re-         On April 20, 1988, a PBS contracting officer issued a final
gion disclosed that the QSFO requirements relating to          decision regarding the avoidance of expenditures of


                                                                                                                         3
$975,104 on a building renovation project. The avoidance                           by the prime contractor on behalf of a subcontractor, cov-
stemmed from an Ole audit of a construction contrac-                               ered costs for electrical, temperature control, and insu-
tor's $5.8 million pricing proposal.                                               lation work.
The March 25, 1988 audit report advised the contracting                            Our July 29, 1988 audit report advised the contracting of-
officer that costs contained in the contractor's proposal                          ficer that costs contained in the proposal were either
were overstated. The auditors recommended a cost avoid-                            overstated or unallowable. The auditors recommended
ance of $975,104 in the following categories: material, la-                        an adjustment of $1.2 million to the proposed costs. A
bor, direct costs, subcontract costs, and overhead.                                substantial percentage of the adjustment was in the sub-
                                                                                   contract costs and time adjustment costs categories.
                                                                                   Negotiations with the contractor are currently underway.

$1.2 Million of Change Order Proposal
Questioned                                                                         D. Statistical Highlights
At the request of the Regional Administrator, the Ole                              The following table compares Ole activity and accom-
audited a $2 million change order proposal related to an                           plishments wi thin PBS to the overall eSA totals for the
extension to a Federal building. The proposal, submitted                           period.



                                                 Activity.                                                        PBS          All GSA
     Audit Reports Issued ............................................................................... ..       189            478
     Recommended Cost Avoidance .............................................................. ..              $28,791,261   $153,632,778
     Recommended Cost Recovery ............................................................... ..               $1,924,361    $23,956,121
     Management Commitments to Avoid Costs ............................................ ..                     $16,835,624    $61,258,591
     Management Commitments to Recover Funds ........................................ .                           $247,489     $2,893,892
     Percentage of Recommended Cost
       Avoidance Agreed to by Management ................................................ ..                       80             66
     Percentage of Recommended Cost
       Recovery Agreed to by Management ................................................... .                     104             77
     Unresolved Audits Older Than 6 Months (Excluding Preawards) ........... ..
     Implementation Reviews Finding Unimplemented Recommendations ... ..                                            3              4
     New Investigative Cases .......................................................................... .          74            218
     Criminal Referrals (Subjects) .................................................................. ..           26             75
     Civil Referrals (Subjects) .......................................................................... .                       4
     Administrative Referrals (Subjects) ......................................................... ..              38             76
     SuspenSion/Debarment Referrals (Subjects) ........................................... .                       26             82
     Indictments/I nformations/Complai nts ...................................................... ..                5             33
     Successful Criminal Prosecutions ............................................................ .                8             27
     Civil Settlements/Judgments ........................................................... , ........ .                          8




E. Significant Audits From                                                         1. Unresolved Significant Audits
   Prior Reports                                                                   Rental Overpayments
Under GSA's audit resolution system, the OIG is respon-                            Period First Reported: October 1, 1987 to March 31, 1988
sible for ensuring resolution of audit recommendations.
The Audit Resolution and Internal Controls Division,                               This ore review found that a lessor had proposed, and
Office of Administration, is responsible for ensuring im-                          the contracting officer erroneously accepted, unallowable
plementation of resolved audit recommendations. That                               costs for escalation when computing a rent increase. As
office furnished the following status information.                                 of September 30, 1988, the report had not been resolved.
Twelve audits highlighted in prior Reports to the Con-                             The report contained two recommendations relating to
gress have not been fL1lly implemented. TWo reports are                            the collection of rental overpayments, plus interest. No
unresolved; two reports are not being implemented in ac-                           implementation actions or dates have been scheduled be-
cordance with established milestones; and the remain-                              cause the report pertains to an ongoing Ole investiga-
ing eight reports are being implemented in accordance                              tion and, as such, has been removed from eSA's
with currently established milestones.                                             resolution process.

4
Elevator Maintenance                                         3. Significant Audits Being Implemented
Period First Reported: October 1, 1987 to March 31, 1988
                                                                According to Established Milestones
This OIG review determined that an elevator main-            Energy Conservation Practices in Leased
tenance contractor had failed to provide contractually       Buildings
required services at a Federal facility, resulting in
GSA making overpayments to the contractor. As of             Period First Reported: October 1,1987 to March 31, 1988
September 30, 1988, the report had not been resolved.
                                                             This OrG multiregional evaluation advised manage-
The report contained recommendations to: (1) determine       ment of energy practices in violation of lease terms. The
the number of hours of service not provided and make         report contained two recommendations; one has been
appropriate deductions from contractor payments, and         implemented.
(2) ensure that the correct number of contractor hours are
provided in future periods. No implementation actions        The remaining recommendation requires the establish-
and dates have been established because the report per-      ment of a program to monitor and manage utility usage
tains to an ongoing investigation and, as such, has been     in leased space and review those leases with excessive
removed from GSA's resolution process.                       usage to determine if reductions are possible. Implemen-
                                                             tation is scheduled for March 1989.

2. Significant Audits Not Being
   Implemented According to Established                      Construction Contract Administration
   Milestones                                                Period First Reported: April 1, 1987 to September 30,1987
Payments For Overtime Services in Leased                     This review of the construction of a Federal building ad-
Space                                                        vised GSA management of the need to enforce the re-
                                                             quirements for schedules and price breakdowns in
Period First Reported: October 1, 1987 to March 31, 1988     construction contracts. The OIG made 13 recommenda-
                                                             tions; 11 have been implemented.
This consolidated report advised GSA that, while most
payments for building overtime services were handled ef-     The remaining two recommendations involve obtaining
fectively, internal controls require strengthening. Ac-      a determination from an Architect and Engineering De-
cordingly, the OIG made 17 recommendations; 14 have          ficiency Committee and resolving any time considera-
been implemented.                                            tions. Both recommendations were originally scheduled
                                                             for completion in June 1988. Full implementation is now
The remaining three recommendations involve: (1) re-         scheduled for October 1988 and February 1989.
covering the cost of overtime services provided tenant
agencies at a border station, (2) preparing accurate inde-
pendent estimates for overtime services, and (3) negoti-
ating overtime rates prior to lease award. All three         Energy Conservation in Leased Space
recommendations were scheduled for implementation by
September I, 1988. As of September 30, 1988, the Audit       Period First Reported: April 1, 1986 to September 30, 1986
Resolution and Internal Controls Division had not re-        This review of energy usage in leased buildings advised
ceived documentation that the recommendations had            GSA that, while notable progress had been made in iden-
been implemented.                                            tifying and monitoring energy usage problems, additional
                                                             opportunities for energy conservation still existed. The
                                                             OIG made ten recommendations; eight have been
Lease Enforcement                                            implemented.

Period First Reported: April 1, 1987 to September 30,1987    The two remaining recommendations involve the instal-
                                                             lation of sensor devices and the performance of energy
This April 20, 1987 report advised GSA of recurring          conservation building studies. They are scheduled to be
maintenance and repair problems in a leased facility The     fully implemented by January 1990 and April 1990,
report contained six recommendations; three have been        respectively
implemented.
The remaining three recommendations involve: (1) cor-
rection of potential health hazards, (2) performance of a    Administration of Cleaning Contracts
comprehensive inspection, and (3) correction of exit light
and floor loading problems. Implementation for all three     Period First Reported: October 1, 1985 to March 31,1986
was originally scheduled for June 1988, and renegotiated
to September 1988. As of September 30, 1988, the Audit       This OIG review concluded that regional controls over
Resolution and Internal Controls Division had not re-        cleaning contracts required strengthening. We made
ceived documentation that the recommendations had            seven recommendations to correct the identified defi-
been implemented.                                            ciencies; six have been implemented.

                                                                                                                      5
The remaining recommendation involves the collection         The implementation date for the remaining recommen-
of overpayments to a GSA contractor. On July 14, 1986, a     dation, which involves updating the leasing handbook,
demand letter was written and an account receivable was      has been renegotiated to January 1989.
established in the amount of $137,082. The contractor has
since filed an appeal with the GSA Board of Contract
Appeals.
                                                             Fire and Life Safety Systems
                                                             Period Firs t Reported: April 1, 1984 to Septem ber 30, 1984
Excessive Tax Escalation Payments                            This consolidated report identified the need for GSA ac-
                                                             tion to ensure the proper functioning of fire and life
Period First Reported: April 1, 1985 to September 30, 1985   safety systems in Federal buildings throughout the coun-
This June 4, 1985 review disclosed that the tax escalation   try. The report contained ten recommendations; nine
clause contained in GSA leases, coupled with some local      have been implemented.
taxing practices, resulted in exorbitant Government tax      The remaining recommendation, which requires testing
escalation payments. The report contained eight recom-       of emergency control and smoke control systems, is
mendations; six have been implemented.                       scheduled for implementation in August 1989.
The two remaining recommendations generally involve
specific actions to reduce GSA's liability for excessive
tax escalation payments. The recommendations were
originally scheduled for completion in November 1985         Fire and Life Safety Systems
and March 1986, respectively. Implementation dates for
both recommendations were renegotiated to June 1988          Period First Reported: October 1, 1983 to March 31, 1984
and again to May 1990.                                       A series of seven OIG reviews identified deficiencies in
                                                             fire and life safety systems in GSA-controlled space. Six
                                                             reports had been fully implemented by September 1988.
                                                             The remaining report contained four recommendations;
More Improvements Needed in Lease Award                      three have been implemented.
Procedures
                                                             Implementation of the remaining recommendation,
Period First Reported: October 1, 1984 to March 31, 1985     which involves the installation of a new fire alarm sys-
                                                             tem in a Federal facility, is generally proceeding in accor-
This consolidated report identified significant problems     dance with the action plan, although delays have been
adversely affecting lease awards in spite of program im-     experienced and revised implementation dates have been
provements implemented by PBS. The report contained          granted. Full implementation is now scheduled for
20 recommendations; 19 have been implemented.                December 1989.




6
SECTION III-FEDERAL SUPPLY SERVICE

The Federal Supply Service (FSS) operates a Government-         civil liability. The firm has already refunded $300,000 to
wide service and supply system that contracts for and           the Government. The remaining $750,000 is to be paid in
distributes billions of dollars worth of supplies, mate-        quarterly installments over the next four years.
rials, and services for customer agencies each year. In the
second half of FY 1988, FSS obligated approximately             A joint GSA OIG audit and investigation found that the
$24 million in direct operating expense appropriations.         firm failed to provide accurate and complete pricing data,
Estimated sales through the General Supply Fund during          and misled GSA about the quantity and nature of its
the same period were almost $1.2 billion.                       commercial sales. GSA contracting officials relied upon
                                                                these data when negotiating the contract and, as a result,
                                                                the firm secured inflated prices from Federal purchasers.
A. Overview of OIG Activity                                     The matter was referred to the Office of the U.S. Attorney,
                                                                which accepted the case for both criminal prosecution
This period, OIG audit coverage of FSS primarily focused        and civil litigation. The settlement agreement was ne-
on contracting activities, particularly preaward audits of      gotiated by representatives of the U.S. Attorney's Office,
multiple award schedule contracts. We issued 111 con-           the Department of Justice Civil Division, and the GSA
tract audit reports recommending $66.2 million in cost          OIG. Relative to the criminal charges, the company pled
avoidances and $1.3 million in recoveries. Notably, two         guilty to submitting false statements in October 1986
OIG preawards highlighted this period account for al-           and was fined $12,000.
most $21. 7 million of our recommended avoidance.
In a series of internal audit reports issued this period, the
OIG presented findings in a variety of FSS program areas,       $575,000 Civil Settlement
including fleet rnanagement, customer supply center op-
erations, depot activities, and contract administration.        On September 7, 1988, a copier equipment supply firm
Joint OIG audit and investigative work resulted in two          entered into a settlement agreement with the Govern-
civil fraud settlements valued at $1,050,000 and                ment whereby it agreed to pay $575,000 to settle its po-
$575,000, respectively. Both settlements resulted from          tential civil and administrative liability. The
OIG disclosures that the firms involved had violated the        Government alleged that the firm failed to provide accu-
price reduction/defective pricing clauses in their GSA          rate and complete pricing data to GSA and failed to dis-
contracts.                                                      close general price reductions granted during the term of
                                                                its GSA contract.
The OIG completed 72 investigative cases involving FSS
programs, operations, or employees. Notably, one inves-         A joint OIG audit and investigation disclosed that the
tigation resulted in the conviction of a GSA motorpool          firm sold items to its commercial customers at discounts
inspector for accepting a bribe. The investigation, con-        greater than those offered to GSA. Failure to disclose
ducted jointly with the FBI, disclosed that the GSA em-         these discounts violated the price reduction/defective
ployee solicited, and accepted, payments in return for          pricing clauses in its GSA contract.
sending business to a contractor.                               The matter was referred to the U.S. Attorney's Office,
Another investigation, conducted jointly with the De-           which declined criminal prosecution. Prior to initiation
fense Criminal Investigative Service, resulted in the con-      of formal civil litigation, a settlement agreement was ne-
victions of a chemical supply firm and its president for        gotiated. Representatives of the U.S. Attorney's Office,
mail fraud. The company falsified test results and deliv-       the Department of Justice Civil Division, GSA's Office of
ered substandard materials.                                     General Counsel, and the GSA OIG participated in the
                                                                negotiations.

B. Significant Audits and
                                                                Improvements Needed in Regional Fleet
   Investigations                                               Management
This section summarizes significant internal and post-
award audits and investigations dealing with FSS. Sig-          During this period, the OIG completed an overall evalu-
nificant preaward contract audits are presented in              ation of one GSA region's management of fleet vehicle op-
Section C.                                                      erations. The evaluation consisted of reviews of three
                                                                Fleet Management Centers and the Centralized Mainte-
                                                                nance Control Center as well as the Fleet Management
                                                                Branch. Individual reports summarizing specific condi-
$1,050,000 Civil Settlement                                     tions in each center were issued.
On August 5, 1988, a GSA furniture supplier agreed to           In a July 25, 1988 consolidated report, we advised the Re-
pay the Government $1,050,000 to settle its potential           gional Administrator that, while the region was generally

                                                                                                                         7
successful in satisfying customer requirements, proce-            pleading guilty to mail fraud and conspiracy to defraud
dures required strengthening in several major areas. We           the Government. The company was fined $100,000 and
found that the size of the vehicle fleet may be excessive         ordered to make restitution of $100,000. The president
since Fleet Management Centers did not require cus-               was sentenced to 5 years in prison (54 months suspended)
tomer agencies to justify the retention of vehicles that did      and 54 months probation, fined $25,000 and ordered to
not meet minimum use guidelines. Further, these cen-              perform 3,744 hours of community service. Both subjects
ters did not encourage user agency rotation of high and           were also prohibited from conducting business with the
low mileage vehicles to maximize vehicle warranty cov-            Government and are required to cooperate in any future
erage and avoid losses in resale values due to high mile-         administrative or civil actions taken against them.
age. Also, the Fleet Management Branch did not
maintain adequate control to ensure that accident re-             The sentencing resulted from a joint GSA OIG and De-
ports were received and that subsequent billings to re-           fense Criminal Investigative Service investigation. The
sponsible parties were processed. In addition, the                investigation disclosed that the company falsified labo-
accuracy of transactions was not verified, required rec-          ratory test reports and submitted substandard materials
onciliations were not performed, and vendor work was              in connection with contracts it held with GSA and the
not adequately monitored.                                         Department of Defense from 1981 to 1985.

We made six recommendations to the Assistant Regional
Administrator, Federal Supply Service, to correct identi-         Improvements Needed at a Customer Supply
fied deficiencies. These included recommendations to:
                                                                  Center
    •     Periodically review vehicle utilization to identify
          underutilized vehicles and contact the user agency      The OIG completed an evaluation of operations at a Cus-
          to verify that the vehicles in question are required.   tomer Supply Center (CSC). The review identified the
                                                                  need to improve procedural and operational areas,
    III   Establish a periodic rotation program for high and
                                                                  thereby ensuring adequate safeguarding of Government
          low mileage vehicles.
                                                                  assets. The review found, for example, that: customers
    •     Enter accident reports when first received and then     were allowed to select their own stock, although this
          account for all accident report numbers issued.         practice violates GSA procedures; an employee of another
                                                                  agency was given access to the CSC's computer system
    •     Ensure that prescribed operating procedures are         and permitted to process customer sales transactions, in-
          followed.                                               cluding those involving his own agency, and perform file
The Regional Administrator concurred with the recom-              maintenance; inventory management practices did not
mendations in the draft report. We are awaiting action            include performance of the required annual wall-to-wall
plans for implementing our recommendations.                       inventory, or timely reconciliation of the Out-of-Balance
                                                                  Report; and prescribed security procedures were not
                                                                  followed.
Bribery Conviction                                                In the report issued August 24, 1988, the OIG directed 10
                                                                  recommendations to the Assistant Regional Administra-
On July 8, 1988, a GSA motorpool inspector pled guilty            tor, Federal Supply Service, to correct identified deficien-
to one count of accepting a bribe. Sentencing is scheduled        cies. These included recommendations to:
for October 1988.                                                   •    Obtain approval from FSS Central Office for cus-
The conviction resulted from a joint GSA OIG and Fed-                    tomers to do their own stock selection, or discon-
eral Bureau of Investigation (FBI) investigation into a                  tinue the practice.
GSA auto repair contractor's allegations that the GSA in-           ED   Permit only authorized CSC employees to proc-
spector had solicited payments of $100 per week. In re-                  ess customer sales transactions and perform file
turn, the inspector would send extra business to the                     maintenance.
contractor, and also advise the contractor on how to bill
GSA for work that was not performed. OIG and FBI spe-               «&   Perform required physical inventories and reconcile
cial agents monitored three meetings during which the                    the Out-of-Balance Report.
inspector accepted payments totaling $600 from the con-             •    Implement required procedures relating to the
tractor, who was cooperating with the investigation.                     wearing of identification badges, distribution of
The subject was suspended without pay by GSA on                          keys, and posting of emergency evacuation plans.
April 5, 1988. Administrative action to terminate his             The Regional Administrator generally concurred with
employment was initiated; however, upon being notified            the recommendations in the draft report. We are awaiting
of this action, the employee resigned his GSA position.           action plans for implementing the recommendations.


Chemical Supplier Convicted                                       c.     Significant Preaward Audits
On September 16, 1988, a GSA chemical supply firm and             The OIG's preaward audit program provides information
its president were sentenced in U.S. District Court after         to contracting officers for use in negotiating contracts.

8
The pre-decisional, advisory nature of preaward audits        the test of commerciality Accordingly, the report rec-
distinguishes them from other audits.                         ommended a cost avoidance of $7.7 million.
                                                              Negotiations with the contractor are currently underway

$14 Million Cost Avoidance Recommended
The OIG evaluated a cost or pricing proposal submitted        $2.3 Million Cost Avoidance Recommended
in response to a GSA solicitation for the purchase of
safes, filing cabinets, vault doors, and other security de-   The orG evaluated discount and marketing data submit-
vices. Estimated sales under the contract are $66 million.    ted in response to a GSA solicitation for the purchase of
                                                              ADP furniture, storage, and transportation. Estimated
In our June 30, 1988 audit report, we advised the con-        sales under the contract are $10.1 million.
tracting officer that the cost or pricing data contained in
the firm's proposal were overstated or unallowable. The       The April 18, 1988 audit report advised the contracting
auditors recommended a cost avoidance of $14 million,         officer of discounts not disclosed in the firm's offer that
principally in the following categories: material, manu-      exceeded those offered to GSA. We further advised that
facturing variance, selling expense, and general and ad-      two offered products did not meet the test of commer-
ministrative expense.                                         ciality, and that cost or pricing data may therefore be re-
                                                              quired. As a result, the auditors recommended cost
We are awaiting the contracting officer's position on the     avoidances totaling $2.3 million.
questioned costs.
                                                              Negotiations with the contractor are currently underway


Pre.award Questions $7.7 Million of Proposed
Cost                                                          Preaward Questions $1.4 Million of Proposed
                                                              Cost
The orG evaluated discount schedule and marketing
data submitted in response to a GSA solicitation for the      The orG evaluated discount schedule and marketing
purchase of furniture systems. Estimated sales under the      data submitted in response to GSA solicitations for the
contract are $80.6 million.                                   purchase, rental, repair and maintenance of microphoto-
                                                              graphic equipment and supplies. Estimated sales under
Our June 10, 1988 audit report advised the contracting of-    the contract are $17.2 million.
ficer that discounts offered to commercial customers
were not disclosed in the firm's offer and that these dis-    Our July 15, 1988 audit report advised the contracting of-
counts exceeded the best discounts offered to GSA. The        ficer that discounts offered to commercial customers
report also advised that concessions granted to other cus-    were not accurately disclosed in the firm's offers and that
tomers tend to negate the status of the Government as         these discounts exceeded the best discounts offered to
"most favored customer." In addition, the audit deter-        GSA. We also advised that, in our opinion, the firm's ra-
mined that several of the offered products did not meet       tionale for offering higher discounts to dealers was not




                                                                                                                       9
justified. The report further advised the contracting of-
ficer to seek the same prompt payment discount terms of-
                                                                                   D. Statistical Highlights
fered to the firm's dealers. Accordingly, the auditors
recommended cost avoidances totaling $1.4 million.
                                                                                   The following table compares OIG activity and accom-
We are awaiting the contracting officer's position on the                          plishments within FSS to the overall GSA totals for the
questioned costs.                                                                  period.




                                                 Activity                                                          FSS         All GSA
     Audit Reports Issued ............................................................................... ..       125            478
     Recommended Cost Avoidance ............................................................... .              $66,194,736   $153,632,778
     Recommended Cost Recovery ................................................................ .               $1,340,088    $23,956,121
     Management Commitments to Avoid Costs ............................................ ..                     $19,353,084    $61,258,591
     Management Commitments to Recover Funds ........................................ .                         $1,743,977     $2,893,892
     Percentage of Recommended Cost
       Avoidance Agreed to by Management ................................................ ..                       51             66
     Percentage of Recommended Cost
       Recovery Agreed to by Management .................................................. ..                      74             77
     Unresolved Audits Older Than 6 Months (Excluding Preawards) ............ .
     Implementation Reviews Finding Unimplemented Recommendations .... .                                            1               4
     New Investigative Cases .......................................................................... .          88            218
     Criminal Referrals (Subjects) .................................................................. ..           41             75
     Civil Referrals (Subjects) .......................................................................... .        3               4
     Administrative Referrals (Subjects) ............................................" ............. .             18             76
     Suspension/Debarment Referrals (Subjects) .......................................... ..                       56             82
     Indictments/lnformations/Complai nts ....................................................... .                25             33
     Successful Criminal Prosecutions ............................................................ .               17             27
     Civil Settlements/Judgments .................................................................... .             5              8




E. Significant Audits From                                                         Customer Supply Center Operations

   Prior Reports
                                                                                   Period First Reported: October 1, 1987 to March 31, 1988
Under GSA's audit resolution system, the OIG is respon-
sible for ensuring resolution of audit recommendations.                            This December 9, 1987 review disclosed several opera-
The Audit Resolution and Internal Controls Division,                               tional and procedural areas that required attention. The
Office of Administration, is responsible for ensuring im-                          report contained 27 recommendations; 26 have been
plementation of resolved audit recommendations. That                               implemented.
office fumished the following status information.
                                                                                   The remaining recommendation requires the sectioning
One significant audit from a prior Report to the Congress                          off of the Customer Supply Center area in the facility by
is not implemented. It is being implemented in accor-                              installing a wall, fence, or equivalent structure. Full im-
dance with currently established milestones.                                       plementation is scheduled for September 1989.




10
SECTION IV-INFORMATION RESOURCES
MANAGEMENT SERVICE

The Information Resources Management Service (IRMS)          these discounts during negotiation of contracts violated
coordinates and directs a comprehensive Government-          the price reduction/defective pricing clauses in its GSA
wide program for managing and procuring automated            contracts.
data processing (ADP) and telecommunications equip-
                                                             The matter was referred to the Office of the U.S. Attorne))
ment and services. In the second half of FY 1988, IRMS
                                                             which declined criminal prosecution, but aecepted the
obligated over $15 million in direct operating expense
appropriations. Estimated sales through the Information      case for civil litigation. The settlement agreement was
                                                             negotiated by representatives of the U.S. Attorney's Of-
Technology Fund during the same period were over
                                                             fice, the Department of Justice Civil Division, GSA's Of-
$493 million.
                                                             fice of General Counsel, and the GSA OIG.




A. Overview of OIG Activity
                                                             c.    Significant Preaward Audits
                                                             The OIG's preaward audit program provides information
This period, OIG audit coverage of IRMS continued to         to contracting officers for use in negotiating contracts.
emphasize contracting activities, particularly preaward      The pre-decisional, advisory nature of preaward audits
audits of multiple award schedule contracts. We issued       distinguishes them from other audits.
127 contract audit reports recommending $58,646,781 in
cost avoidances and $19,920,972 in recoveries. Notabl))
an OIG preaward highlighted this period resulted in a
management commitment to avoid $7.2 million.                 $ 7.2 Million Cost Avoidance Through Preaward
Joint OrG audit and investigative effort resulted in a       Audit
$900,938 civil settlement agreement with a computer
graphics supplier. The OIG review found that the firm        On September 23, 1988, GSA management avoided ex-
sold items to commercial customers at discounts greater      penditures of $7.2 million after successfully negotiating
than those disclosed to GSA.                                 pricing concessions in that amount from an ADP soft-
                                                             ware firm. The avoidance stemmed from an OIG audit of
OIG investigators completed 12 cases this period involv-     the firm's $17 million pricing proposal submitted in
ing IRMS programs, operations, and employees; most in-       response to a GSA solicitation for software conversion
volved white collar crimes.                                  services.
                                                             In our May 20, 1988 audit report, we advised the con-
                                                             tracting officer that the proposal contained overstated
                                                             and unsupported costs. We further advised that contrac-
                                                             tor estimates were incomplete. The auditors recom-
B. Significant Audits and                                    mended a cost avoidance of $9.9 million in the following
                                                             categories: direct labor and fringe benefits, license and
   Investigations                                            royalty fees, relocation costs, overhead, and general and
                                                             administrative expenses.
This section summarizes significant postaward audits
and investigations dealing with IRMS operations. Sig-
nificant preaward contract audits are presented in Sec-
tion C.                                                      $7.2 Million Recommended Cost Avoidance
                                                             The OIG evaluated discount schedule and marketing
                                                             data submitted in response to a GSA solicitation for the
$900,938 Civil Settlement                                    purchase of communications equipment. Estimated
                                                             sales under the contract are $80 million.
On May 6, 1988, a firm agreed to pay the Government
$900,938 to settle potential civil fraud issues. The firm,   Our June 28, 1988 audit report advised the contracting
a supplier of computer graphics equipment and software,      officer that discounts offered to commereial customers
refunded the full amount to the Government at the time       exceeded the best diseounts offered to GSA. Although
of settlement.                                               the firm's offer disclosed these commercial discounts,
                                                             the rationale for not offering GSA equal discounts was
A joint OIG audit and investigation disclosed that the       considered to be flawed. Based on the sales volume as
firm sold items to its eommercial customers at discounts     well as the terms        conditions offered to other cus-
greater than those offered to GSA. Failure to disclose       tomers,      report advised the contracting officer to seck

                                                                                                                     11
discounts equal to the best commercial customer in the                              $1 Minion of Termination Settlement Proposal
same category. Accordingly, the auditors recommended a                              Questioned
cost avoidance of $7.2 million.
Negotiations with the contractor are currently underway.                           The OIG audited a firm's $1.8 million settlement pro-
                                                                                   posal relating to GSA's termination of a contract to op-
                                                                                   erate information training products centers. The audit
                                                                                   determined that proposed costs violated contract provi-
                                                                                   sions, were based on judgmental estimates, or did not di-
Preaward Questions $1.3 Million of Proposed                                        rectly relate to the terminated portion of the contract.
Cost                                                                               Our May 31, 1988 audit report advised the contracting of-
                                                                                   ficer that $1 million of costs contained in the proposal
The OIG evaluatyd discount schedule and marketing                                  were overstated or unallowable. The overstated or unal-
data submitted in response to a GSA solicitation for the                           lowable amounts were principally for: direct material, la-
purchase of general purpose ADP equipment and soft-                                bor, and general and administrative expenses.
ware. Estimated sales under the contract are $8 million.                           We are awaiting the contracting officer's position on the
Our April 11, 1988 audit report advised the contracting                            questioned costs.
officer that discounts offered to commercial customers
were not accurately disclosed in the firm's offer and that
these discounts exceeded the best discounts offered to
GSA. Accordingly, the auditors recommended a cost                                  D. Statistical Highlights
avoidance of $1.3 million.
                                                                                   The following table compares OIG activity and accom-
The contracting officer successfully negotiated the con-                           plishments within IRMS to the overall GSA totals for the
tract and obtained $1.5 million in pricing concessions.                            period.



                                                 Activity                                                         IRMS         All GSA
     Audit Reports Issued ............................................................................... ..       130            478
     Recommended Cost Avoidance ...................................................... '" ...... .             $58,646,781   $153,632,778
     Recommended Cost Recovery ............................................................... ..              $19,920,972    $23,956,121
     Management Commitments to Avoid Costs ............................................ ..                     $25,069,883    $61,258,591
     Management Commitments to Recover Funds ........................................ .                           $902,426     $2,893,892
     Percentage of Recommended Cost
       Avoidance Agreed to by Management .................................................. .                      73              66
     Percentage of Recommended Cost
       Recovery Agreed to by Management.. .................................................. .                     79              77
     Unresolved Audits Older Than 6 Months (Excluding Preawards) ............ ..
     Implementation Reviews Finding Unimplemented Recommendations .... ..                                                          4
     New Investigative Cases .......................................................................... .          27            218
     Criminal Referrals (Subjects) .................................................................. ..            7             75
     Civil Referrals (Subjects) .......................................................................... .        1              4
     Administrative Referrals (Subjects) ......................................................... ..               4             76
     Suspension/Debarment Referrals (Subjects) ........................................... .                                      82
     Indictments/lnformations/Complai nts ....................................................... .                  2            33
     Successful Criminal Prosecutions ........................................................... ..                 2            27
     Civil Settlements/Judgments .................................................................... .              3             8




E. Significant Audits From                                                         Office of Administration, is responsible for ensuring im-
                                                                                   plementation of resolved audit recommendations. That
   Prior Reports                                                                   office furnished the following status information.
                                                                                   Two IRMS audits highlighted in prior Reports to the
                                                                                   Congress have not been fully implemented. One report
Under GSA's audit resolution system, the OIG is respon-                            was resolved just prior to the close of the reporting pe-
sible for ensuring resolution of audit recommendations.                            riod; the other report is being implemented in accor-
The Audit Resolution and Internal Controls Division,                               dance with currently established milestones.



12
Security at a Computer Facility                                Telecommunications Systems Management
Period First Reported: October 1, 1987 to March 31, 1988
                                                               Period First Reported: October 1, 1985 to March 31, 1986
This OIG review disclosed that improvements in secu-
rity and fire safety were necessary to protect personnel,      This OIG review concluded that IRMS needed to
equipment, and sensitive data. The report contained four       strengthen its oversight role relative to Government tele-
recommendations to correct the identified deficiencies.        communications systems. We made 12 recommenda-
                                                               tions i 11 have been implemented.
On September 8, 1988, the report was resolved. Accord-
ingl)\ it has just been referred to the Audit Resolution and   The remaining recommendation, which involves the
Internal Controls Division for tracking of implementa-         development and issuance of technical manuals, is
tion actions.                                                  scheduled for full implementation in December 1988.




                                                                                                                      13
SECTION V -OTHER GSA COVERAGE

Other GSA services and staff offices, such as the Federal     $47.2 million. The review concluded that enhancements
Property Resources Service, the Office of the Comptrol-       to systems edits and to the data supplied by the oil com-
ler, and the Office of Administration, comprised the fo-      panies are needed to detect credit card misuse, and to
cus for the remainder of the OIG's efforts this period.       verify the fuel tax exemption rates and related amounts
                                                              billed by the oil companies.
                                                              Our analysis of one month of the CAPS payment history
A. Overview of OIG Activity                                   file identified possible misuse of the credit cards, includ-
                                                              ing: 136 instances where non-fuel charges exceeded $50,
OIG coverage of the Federal Property Resources Service,       although the required authorization from a GSA Main-
the Office of the Comptroller, the Office of Administra-      tenance Control Center had not been obtained; 114 in-
tion, and other GSA organizations consisted primarily of      stances where at least 25 gallons of fuel had been
internal management reviews. These reviews resulted in        purchased, despite the fact that none of the vehicles in-
findings and recommendations in areas such as payment         volved had fuel tanks with a 25-gallon capacity; and 77
procedures, consultant contracts, real property disposal,     instances where the cost of fuel exceeded $2 per gallon.
billings to other agencies, and imprest funds. The OIG        In addition, we identified noo vehicles that had 20 or
also provided extensive technical assistance relative to      more credit card purchases during the month. Since
the audit of GSA's FY 1987 consolidated financial state-      there were only 20 workdays in the month, that number
ments, performed in conjunction with the General Ac-          of purchases seemed excessive.
counting Office.                                              Our review also identified overpayments to some oil
An especially noteworthy review advised management of         companies due to CAPS not verifying the accuracy of the
the' need to enhance systems edits for the Credit Card        fuel tax exemption amounts computed by those oil com-
Accounts Payable System as well as the data reported by       panies that supply fuel tax data on their billings. In many
oil companies. The OIG believes that such enhance-            jurisdictions, the Government is not required to pay
ments are necessary to prevent credit card abuse and          state, county, and local fuel taxes. However, since the fuel
overpayments for exempt fuel taxes.                           taxes are included in the price per gallon charged at the
                                                              service station, charges related to the exempt taxes need
In addition, 16 imprest fund reviews advised manage-          to be deducted from the gross amount of the oil compa-
ment of the need to improve internal controls and physi-      nies'invoices.
cal safeguards. We also recommended an increase to the
cash levels maintained at several funds.                      The September I, 1988 report offered six recommenda-
                                                              tions to the Comptroller to correct identified deficiencies.
The OIG also completed 30 investigations involving the        These included recommendations to:
personnel, programs, and operations in these GSA areas.
                                                                •   Initiate action to obtain billing detail from oil com-
                                                                    panies that includes the date of purchase and loca-
                                                                    tion of service station for each credit card charge
Bo Significant Audits                                               ticket.
                                                                •   Develop CAPS edits to detect missing data and
This section summarizes significant internal audits in-             check the validity and reasonableness of charges.
volving the programs and operations of the remaining
GSA services and staff offices.                                 •   Develop CAPS edits to verify the fuel tax exemp-
                                                                    tion rates and amounts billed for all oil company
                                                                    invoices.
Controls Over Payments for Credit Card                        The Comptroller concurred with the recommendations
Purchases                                                     in the draft report. We are awaiting the action plans for
                                                              implementing these recommendations.
The U.S. Government National Credit Card is used to
pay for purchases of fuel and related supplies and services
for Government-owned vehicles. GSA assigns a credit
                                                              Imprest Fund Reviews
card to each of the vehicles in its motor pool fleet. This
                                                              OIG reviews of 16 imprest funds in 5 GSA regions dis-
card is prohibited from being used to purchase products
                                                              closed weaknesses in internal controls, inadequate phys-
for any other vehicle, whether Government or privately-
                                                              ical safeguards, and insufficient cash levels. Internal
owned.
                                                              control weaknesses, identified in nine funds, included:
This period, the OIG completed a review of the GSA            nonperformance of unannounced cash counts, use of a
Credit Card Accounts Payable System (CAPS), which is          common cash box by several cashiers, existence of two
used to process payments of oil company bills for pur-        funds in the same building, improper segregation of du-
chases made with the National Credit Card. During             ties, and expenditures without proper approval. The
1987, payments to oil companies through CAPS totaled          physical security problems, which were found in seven

14
funds, included: safe combinations not regularly                                     the reports are resolved; we are awaiting action plans for
changed, inadequate safeguarding of duplicate keys, use                              the other eight reports.
of substandard locks, and failure to test the alarm sys-
tem. Finally; the amount of cash maintained in three
funds was insufficient to cover normal disbursements.                                c.      Statistical Highlights
                                                                                     The following table compares OIG activity and accom-
In 14 reports issued this period, the OIG offered recom-                             plishments in other GSA areas to the overall GSA totals
mendations to correct these and other deficiencies. Six of                           for the period.



                                                  Activity                                                       Other GSA     All GSA
     Audit Reports Issued..................... ........................... .................................         34            478
     Recommended Cost Avoidance ............................................................... .                             $153,632,778
     Recommended Cost Recovery .................................................................                   $770,700    $23,956,121
     Management Commitments to Avoid Costs ............................................. .                                     $61,258,591
     Management Commitments to Recover Funds ........................................ .                                         $2,893,892
     Percentage of Recommended Cost
       Avoidance Agreed to by Management ................................................ ..                                        66
     Percentage of Recommended Cost
       Recovery Agreed to by Management ................................................... .                                       77
     Unresolved Audits Older Than 6 Months (Excluding Preawards) ............ .
     Implementation Reviews Finding Unimplemented Recommendations .... .                                                             4
     New Investigative Cases...........................................................................              29            218
     Criminal Referrals (Subjects) ...... .......... .......... .......... ....... ............... .... ......        1             75
     Civil Referrals (Subjects) .......................................................................... .                         4
     Administrative Referrals (Subjects) ......... ........ ........ .......... .... ...... ..............           16             76
     Suspension/Debarment Referrals (Subjects) ........................................... .                                        82
     Indictments/I nformations/Complaints ....................................................... .                                 33
     Successful Criminal Prosecutions ............................................................ .                                27
     Civil Settlements/Judgments .................................................................... .                              8




D. Significant Audits From                                                           report contained four recommendations to correct the
                                                                                     identified deficiencies.
   Prior Reports                                                                     The report was resolved late in the reporting period. Ac-
                                                                                     cordingly; it has just been referred to the Audit Resolu-
Under GSA's audit resolution system, the OIGis respon-                               tion and Internal Controls Division for tracking of
sible for ensuring resolution of audit recommendations.                              implementation actions.
The Audit Resolution and Internal Controls Division,
Office of Administration, is responsible for ensuring im-
plementation of resolved audit recommendations. That
office furnished the following status information.
With regard to GSA services and staff offices other than
PBS, FSS, and IRMS, only three significant audits from                               Federal Managers' Financial Integrity Act
prior Reports to the Congress are not fully implemented.
One report was resolved just prior to the close of the re-                           Period First Reported: October I, 1987 to March 31, 1988
porting period; the other two reports are being imple-
mented in accordance with currently established                                      This OIG review determined that, while GSA continued
milestones.                                                                          to make improvements in its methods and procedures for
                                                                                     the annual review of its accounting systems, certain as-
                                                                                     pects of the overall review process still require attention.
                                                                                     The report contained two recommendations; one has
Prompt Payment Act                                                                   been implemented.

Period First Reported: October I, 1987 to March 31, 1988                             The remaining recommendation requires detailed re-
                                                                                     views of GSA's financial management systems, includ-
This OIG review advised GSA management of the need                                   ing tests of transactions from initiation to reporting. It is
to strengthen controls over payments to contractors. The                             scheduled for implementation in December 1989.

                                                                                                                                                15
Federal Managers' Financial Integrity Act                   cantly, but could not yet be relied upon as the primary
                                                            basis for reporting. The report contained five recommen-
Period First Reported: April 1, 1987 to September 30,1987   dations; four have been implemented.
This OIG review concluded that GSA's review and eval-       The remaining recommendation requires updating the
uation process for implementing Section 2 of the Federal    Management Control Improvement Program Handbook.
Managers Financial Integrity Act has improved signifi-
         I                                                  It is scheduled for implementation in December 1988.




16
SECTION VI-STATISTICAL SUMMARY OF OIG
ACCOMPLISHMENTS

The previous sections of this report presented OIG activ-     $326 million to $346 million); and a 2 percent decrease
ity and accomplishments by GSA service and staff office.      in management commitments to achieve savings. These
In the pages that follow, overall OIG accomplishments         statistics, however, fail to recognize that in FY 1987 a
are comprehensively reported. To facilitate cross-            single anomalous audit yielded $125 million in recom-
referencing, the GSA organizational orientation is main-      mended savings and $96 million in management com-
tained in these summary statistics. However, there is not     mitments to achieve savings. Removing this audit from
a one-to-one correspondence between the data reported         the comparison allows a better view of audit productiv-
by GSA organization and the overall statistics, because       ity: a 40 percent increase in audit reports issued; a 71
a portion of our work involved non-GSA operations.            percent increase in recommended savings; and a 29 per-
                                                              cent increase in management commitments.
                                                              On the investigative side, we started FY 1988 with sev-
A.. DIG Accomplishments                                       eral goals. First, we wanted to increase our investigative
                                                              focus on significant white collar crime. Second, we
In terms of our accomplishments, we offer a comparison        wanted to improve prosecutive results. Again, we believe
of the results the Ole achieved in FY 1988 versus those       that our results have been impressive:
achieved in FY 1987. This fiscal year comparison has sev-
eral advantages: it allows for review of our accomplish-        •   Indicative of our focus on white collar crime, we
ments in light of our FY 1988 goals; and it attenuates              expended 7 percent of our direct investigative re-
statistical fluctuations caused by lapses between the ex-           sources on several complex investigations having
penditure of audit and investigative effort and realization         multi-agency, nationwide implications; and these
of results.                                                         investigations were still ongoing at the end of
                                                                    FY 1988.
On the audit side, we succeeded in our principal FY 1988
goal of increasing auditor productivity. In terms of total      •   In terms of prosecutive results, the number of suc-
numbers, from FY 1987 to FY 1988, we experienced a 40               cessful prosecutions and civil settlements in-
percent increase in audit reports issued (from 635 to               creased by 18 percent (from 45 in FY 1987 to 53 in
889); a 6 percent increase in recommended savings (from             FY 1988).




                                                                                                                     17
The following subsection presents detailed information
on the OIG's quantifiable accomplishments during this
                                                                   B. Summary Statistics
six-month period. Notably, more audit reports were is-
sued this period than in any preceding semiannual pe-              1. Audit Reports Issued
riod since FY 1981; and more criminal and civil referrals
were accepted for prosecution or litigation than in any            Table I summarizes OrG audit reports issued this period
six-month period since FY 1985. Given the considerable             by GSA program area. The table includes 44 audits, rec-
time often required to obtain results from audit and in-           ommending a total cost avoidance of $4,697,012, which
vestigative effort, these high levels of activity bode well        were performed for the GSA OIG by the Defense Contract
for accomplishments in future reporting periods.                   Audit Agency.




                                              Table 1.   Summary of OIG Audits
                                                         Percentage           Recommended           Recommended
                   GSA                       Reports      of Total                Cost                  Cost
                 Program                     Issued        Audits               Avoidance             Recovery

     PBS
     -Internal ...........................      89                            $  6,383,877           $ 1,613,258
     -Contract. .........................      100                              22,407,384
                                                                                   --.~---
                                                                                                      __ 311,103
                                               189           39               $ 28,791,261           $ 1,924,361

     FSS
     -Internal ...........................      14                             $    41,000           $
     -Contract. .........................      111                              66,153,736             1,340,088
                                                                                                      ------
                                               125           26               $ 66,194,736           $ 1,340,088

     IRMS
     -Internal ...........................       3                             $                     $
     -Contract. .........................      127                              58,646,781            19,920,972
                                                                                                         ~~-----




                                               130           27               $ 58,646,781           $19,920,972

     Other GSA
     -Internal ...........................      33                             $                     $
     -Contract. .........................        1                                 -~~"----
                                                                                                          770,700
                                                34            7                $                     $    770,700

     Non-GSA
     -Internal ...........................       6                             $                     $
     -Contract. .........................
                                                 °6                            $                     $
                                                                                                      ---




     TOTAL ...............................     484           100               $153,632,778          $23,956,121
     TOTAL COSTS
     RECOMMENDED ..............               $177,588,899




18
2. Audit Reports Resolved                                               overdue-a statistic that reflects creditably on GSA's
                                                                        audit resolution efforts.
Table 2 summarizes the universe of audits to be resolved                It should be noted that Table 2 does not include: the 6 re-
by the OIG and GSA management during this period, as                    ports issued to other agencies this period and reports ex-
well as the status of those audits as of September 30,                  cluded from the resolution system because they pertain
1988. Ninety reports more than 6 months old were un-                    to ongoing investigations. As of September 30, 1988, 53
resolved as of September 30, 1988; but all of them were                 reports (11 issued this period, 42 issued in prior periods)
preaward audits, which are not subject to the 6-month                   had been excluded from the resolution system for the lat-
resolution requirement. Thus, no reports were actually                  ter reason.




                                            Table 2.          Resolution of OIG Audits
                                                                             Reports With                     Total
                                                               No. of          Financial                    Financial
                                                              Reports      Recommendations               Recommendations

     Unresolved as of 4/1/88
     -Less than 6 months old ......................... .        222                128                      $102,324,547
     -More than 6 months old ........................ .          63                 58                        34,986,521
     Reports issued this period ....................... ..      467                242                       156,499,554
                                                                                                             ~-      -------



     TOTAL TO BE RESOLVED ...................... .              752                428                      $293,810,622

     Reports resolved
     -Issued prior periods .............................. .     195                106                      $ 79,701,628
     -Issued current period ............................ .      255                 94                         57,284,199
                                                                                                             - - - " " - - --'
                                                                                                                         ---



     TOTAL RESOLVED ................................. .         450                200                      $136,985,827

     Unresolved as of 9/30/88
     -Less than 6 months old ......................... .        212                148                      $ 99,215,355
     -More than 6 months old ........................ .          90                 80                        57,609,440
                                                                                                             -_._-------


     TOTAL UNRESOLVED ............................ .            302                228                      $156,824,795




                                                                                                                                 19
3. Resolution Decisions on Financial                                     the audit resolution process. In fact, in a number of in-
                                                                         dividual cases, contracting officers resolved to seek sav-
   Recommendations                                                       ings in excess of the amounts recommended by the OIG.
                                                                         In accordance with GSA Order ADM 2030.2A, resolu-
                                                                         tion decisions on financial recommendations contained
                                                                         in contract audit reports result in resolved cost avoidance
Table 3 provides detailed information on the 200 reports                 or recovery. Management commitments occur subse-
involving financial recommendations of $136,985,827                      quently, at the time of contract settlement. For internal
that are identified in Table 2 as being resolved this period.            audits, management commitments occur at the time of
Notably, $114,449,188 or almost 84 percent was upheld in                 resolution.




                                       Table 3.         Resolution Decisions on OIG Audits
                                                        Recommended            Resolved       Recommended           Resolved
                        GSA                                 Cost                 Cost             Cost                Cost
                      Program                            Avoidance             Avoidance        Recovery            Recovery

      PBS
     -Internal ................................... .    $    6,003,837    $  6,073,837         $ 238,853           $ 247,489
     -Contract ................................. .          30J7~~~2        30,398,468
                                                                                   -_._-
                                                                              ,-~~---   ~--
                                                                                                    41,504
                                                                                                --_.--_._-----
                                                                                                                      41,504
                                                                                                                     ----"-
                                                        $ 36,175,729      $ 36,472,305         $ 280,357           $ 288,993
      FSS
     -Internal ................................... .    $                 $                    $   19,258          $ 19,258
     -Contract ................................. .        ~0~~§2!?          33,238,162
                                                                              --.-~-------
                                                                                                2,389,348
                                                                                                   ----------
                                                                                                                    1,765,582
                                                                                                                    -----_.-
                                                        $ 50,886,712      $ 33,238,162         $2,408,606          $1,784,840
     IRMS
     -Internal ................................... .    $                 $                    $                   $
     -Contract ................................. .          ~4,51?,55?        ~QJ~Q,85~         2,716,871
                                                                                                - - - - -..-._-
                                                                                                                    2,484,033
                                                                                                                    --------_.-
                                                        $ 44,517,552      $ 40,180,855         $2,716,871          $2,484,033
      Other GSA
      -Internal .................................. ..   $                 $                    $                   $
      -Contract ................................. .                           -.----.-             - - - -..   -    .-------_.-
                                                        $                 $                    $                   $

      TOTAL ........................................    $131,579,993      $109,891,322         $5,405,834          $4,557,866

      TOTAL
      RESOLVED
      COSTS.......................................      $114,449,188




20
4. Contract Audit Settlements                                                in negotiations with contractors. Overall, management
                                                                             commitments on GSA audits represented almost 74 per-
Table 4 compares contract audit resolution amounts with                      cent of the resolved amounts.
the corresponding management commitments achieved



                                    Table 4.        Summary of Contract Audit Settlements
                                                                         Avoidance                          Recovery
                    GSA                          No. of             Costs      Management             Costs     Management
                  Program                       Reports            Resolved    Commitment            Resolved   Commitment

     PBS
     -Prior................................        53          $11,679,783        $ 9,406,562       $                      $
     -Current...........................           17              ~-,1300,60Q     __h3~5,2~5              -   ---             .------~.----




                                                   70          $13,480,383        $10,761,787       $                      $
     FSS
     -Prior................................       57           $28,775,173        $17,771,461       $1,706,909             $1,706,288
     -Current...........................          23               ~,963,1!~       -
                                                                                     1,581,623
                                                                                         ---- ..
                                                                                      ----    ~
                                                                                                        18,431
                                                                                                        ------~~-
                                                                                                                               18,431
                                                                                                                               -------


                                                  80           $31,738,344        $19,353,084       $1,725,340             $1,724,719
     IRMS
     -Prior................................       24           $19,056,820        $16,177,937       $ 902,426              $ 902,426
     -Current...........................          11               jJ~~,946         8,891,946
                                                                                   ---_._--             --._"-----   ---       __ u   ________   ~




                                                  35           $30,698,766        $25,069,883       $ 902,426              $ 902,426
     Other GSA
     -Prior. .............................. .                  $                  $                 $                      $
     -Current .......................... .                          ---------      ---._-------                                  - - - - ..   --
                                                               $                  $                 $                      $
     TOTAL................................       185           $75,917,493        $55,184,754       $2,627,766             $2,627,145*

     TOTAL
     MANAGEMENT
     COMMITMENTS................                 $57,811,899

     *Includes $2,525,938 also reported under Monetary Results.




5. Total Management Commitments                                              been instituted, the GSA OIG requested data on actual
                                                                             audit recoveries from GSA's Audit Resolution and Inter-
Drawing upon the information presented in Tables 3 and                       nal Controls Division. Between April I, 1988 and Sep-
4, OIG internal and contract audits involving GSA pro-                       tember 30, 1988, Agency records show that $995,983 was
grams resulted in management commitments to more                             recovered and deposited in the Treasury as the result of
efficiently use $61,258,591 and to recover $2,893,892.                       OIG audits.


                                                                             7. Audit FoHowup
6. Recoveries                                                                GSA Order ADM 2030.2A places primary responsibility
                                                                             for follow up on the implementation of resolved audit rec-
The General Accounting Office has recommended that                           ommendations with the Audit Followup Official. The
OIG Reports to the Congress include data on actual mon-                      Audit Resolution and Internal Controls Division, Office
etary recoveries in addition to management commitment                        of Administration, acts as staff to the Audit Followup Of-
information. Although such a requirement has not yet                         ficial in this function.




                                                                                                                                                     21
The ore performs its own independent reviews of imple-                               8. Investigative Workload
mentation actions on a test basis. This period, the ore
performed 26 implementation reviews. Management had
successfully implemented the recommendations con-                                    Table 5 presents detailed information on investigative
tained in 22 of these reviews. In the other 4 instances,                             workload by case category. The Ole opened 218 cases and
recommendations were not being implemented in accor-                                 closed 190 cases; only 35 of these cases were administra-
dance with the action plans. Three of these audits in-                               tively closed without referral.
volved PBS programs, the other audit involved an FSS
activity.                                                                            In addition to these cases, the Ole received and evalu-
                                                                                     ated 146 complaints/allegations from sources other than
A report on each implementation review was distributed                               the Hotline that involved CSA employees and programs.
to the cognizant management official and to the Audit                                Based upon analyses of these allegations, Ole investi-
Resolution and Internal Controls Division.                                           gations were not warranted.




                                                      Table 5.             Investigative Workload
                               Case                                        Cases Open       Cases        Cases         Cases Open
                              Category                                       4/1/88        Opened        Closed          9/30/88
     White Collar Crimes .....................................                248             107            77             278
     Other Crimes Involving GSA Operations .....                                41             27            27              41
     Contractor Suspension/Debarment .............                              44             25            23              46
     Employee Misconduct .................................                      45             29            30              44
     Other ............................................................
                                                                              -
                                                                                45             30            33              42
     TOTAL .........................................................          423             218          190              451


Table 6 distributes the 218 new investigative cases                                  within the white collar crime category. Most of the new
opened this period (Table 5) by case category and CSA                                cases (74 percent) involved PBS and FSS programs.
program area. Notabl)j 49 percent of the cases opened fell



                                   Table 6.           Distribution Of Cases Opened This Period
                               Case                                                                                        Other
                              Category                                        PBS            FSS          IRMS             GSA
     White Collar Crimes .................................... .                34             46            20                7
     Other Crimes Involving GSA Operations .... .                              10             12             1                4
     Contractor Suspension/Debarment ............ .                            12             12             1
     Employee Misconduct ................................ .                    13              8             5                3
     Other ........................................................... .        5             10                             15
     TOTAL ........................................................ .          74             88            27              29




22
9. Referrals                                                                         The status of ole administrative referrals is as follows:
                                                                                                                                             Cases   Subjects
The ole makes three types of referrals to officials out-
                                                                                        Pending Decision
side eSA: criminal, civil, and investigative. During this
                                                                                          as of 4/1/88 ........................... .          37         46
period, we referred 31 cases involving 75 subjects to the
                                                                                        Referrals .................................... .      65         76
Department of Justice or other authorities for criminal
prosecutive consideration. The status of ole criminal                                   Action Completed .................... .               57         73
referrals is as follows:                                                                Pending Decision
                                                                                          as of 9/30/88 ......................... .           45         49

                                                       Cases        Subjects
                                                                                     Of the 65 cases referred for administrative action this pe-
  Pending Prosecutive Decision
                                                                                     riod, 38 cases (41 subjects) involved GSA employees. As a
    as of 4/1/88 ........................... .           22               60
                                                                                     result of these and prior referrals, management took the
  Referrals .................................... .       31               75
                                                                                     following actions against GSA employees:
  Declinations ............................. .           15               23
  Accepted for Prosecution ......... .                   25               53
  Pending Prosecutive Decision                                                         Reprimands ...............................             21
    as of 9/30/88 ......................... .            18               59           Suspensions ...... .................. .......           8
                                                                                       Demotions ................................ .
                                                                                       Terminations.............................               5
The ole also referred 4 cases involving 4 subjects to
either the Civil Division of the Department of Justice or
a U.S. Attorney for civil fraud litigation consideration.                            11. Contractor Suspensions and
The status of Ole civil referrals is as follows:                                         Debarments
                                                                                     This period, the OIG referred 8 cases involving 31 sub-
                                                                                     jects for suspension and 11 cases involving 51 subjects
                                                      Cases         Subjects         for debarment. As a result of these and prior referrals,
  Pending Litigation Decision as                                                     management imposed 27 suspensions and 33 debar-
    of 4/1/88 .............................. ..          14               26         ments. Management disapproved 4 suspensions and 23
  Referrals .................................... .        4                4         debarments.
  Declinations ............................. .            2                8
  Accepted for Litigation ............ .                  4                4         The status of ole suspension and debarment referrals is
  Pending Litigation Decision as                                                     as follows:
    of 9/30/88 ............................. .           10               18
                                                                                                  Suspensions                               Cases    Subjects
The ole made 2 referrals to other Federal or State agen-                               Pending as of 4/1/88 ................. .               8        20
cies for further investigation or other action.                                        Referrals .................................... .       8        31
                                                                                       Action Completed .................... .                8        31
                                                                                       Pending as of 9/30/88 ............... .                8        20

                                                                                                  Debarments                                Cases    Subjects
10. Administrative Referrals and Actions                                               Pending as of 4/1/88 ................. .              14        55
                                                                                       Referrals .................................... .       11       51
Frequently, ole investigations disclose nonprosecutable
                                                                                       Action Completed .................... .                11       52
wrongdoing on the part of GSA employees, contractors, or
                                                                                       Pending as of 9/30/88 ............... .                14       54
private individuals doing business with the GSA. The
OIG refers these cases to GSA officials for administrative
action.                                                                              12. Summary of Referrals by GSA
During the period, we referred 65 cases involving 76 sub-                                Program Area
jects for administrative action. In addition, we referred 61
cases involving 77 subjects to GSA officials for informa-                            Table 7 summarizes Ole referrals this period by type of
tional purposes only.                                                                referral and GSA program area.


                                          Table 7.            Summary Of OIG Subject Referrals
                                  GSA                                                                            Adminis-                  Suspension!
                                                                          Criminal          Civil                 trative                   Debarment
      PBS .............................................................        26                                     38                       26
      FSS..............................................................        41              3                      18                       56
      IRMS............................................................          7              1                       4
      Other GSA ...................................................             1                                     16
      TOTAL.........................................................           75              4                      76                       82
13. Criminal and Civil Actions                                                      against 2 individuals, and settlements being reached in 7
                                                                                    cases with 8 subjects.
Cases accepted for criminal prosecution during this and                             Table 8 summarizes individual criminal and civil actions
prior periods resulted in 31 indictmentslinformations                               by GSA program area. In addition, there were unsuccess-
and 27 successful prosecutions. Civil referrals from this                           ful criminal cases against 3 subjects and unsuccessful
and prior periods resulted in 2 civil fraud complaints                              civil cases against 4 subjects.




                                     Table 8.            Summary Of Criminal And Civil Actions
                                                                                Indictments/                               Civil
                                   GSA                                         Informations/       Successful          Settlements/
                                 Program                                         Complaints       Prosecutions         Judgments
     PBS ................................................................. .         5                    8
     FSS ................................................................. .        25                   17                  5
     IRMS .............................................................. ..          2                    2                  3
     Other GSA ..................................................... ..              1
     TOTAL ............................................................ .           33                   27                  8




14. Monetary Results                                                                In addition, the OIG identified for recovery $1,290,398
                                                                                    in money and/or property during the course of its
                                                                                    investigations.
Table 9 presents the amounts determined to be owed the                              Because of the collaborative nature of OIG activities,
Government as a result of criminal and civil actions. The                           $2,525,938 of the amounts reported as investigative re-
amounts do not necessarily reflect actual monetary                                  coveries and criminal and civil recoveries is also reported
recoveries.                                                                         under management commitments to recover funds.




                                              Table 9.            Criminal And Civil Recoveries
                                                                                 Criminal                Civil                Total

     Fines and Penalties ........................................ .              $128,589            $                     $ 128,589
     Settlements/Judgments .................................. .                                       3,142,828             3,142,828
     Restitutions ..................................................... .         505,854                                     505,854
     TOTAL ............................................................ .        $634,443            $3,142,828            $3,777,271




15. OIG Subpoenas
During the period, 11 OIG subpoenas were issued.




24
SECTION VII-REVIEW OF LEGISLATION AND
REGULATIONS

Section 4(a)(2) of the Inspector General Act of 1978 re-           this bill which would disallow all costs of defend-
quires the OIG to review existing and proposed legisla-            ing any alleged violations of Federal, state, or local
tion and regulations relating to GSA programs and                  law or regulation if: an indictment was returned; a
operations. To fulfill this legislated responsibility, the         criminal conviction was obtained; there was a civil
OIG maintains a clearance system, coordinated by OUT               or administrative determination of liability; or
legal staff, that ensures OIG review of all proposed leg-          there was a decision to debar or suspend the con-
islation, regulations, and internal directives affecting           tractor, or to rescind, void, or terminate a contract
any aspect of GSA operations.                                      for default. We endorsed the proposal to limit the
                                                                   reimbursement of legal costs, absent any of the ad-
                                                                   verse findings above, to the extent of a $75 per hour
                                                                   fee rate. We commented that this bill would pro-
                                                                   vide a viable means to address the Government's
A. Legislation/Regulations                                         growing concern about excessive or inappropriate
                                                                   cost reimbursement.
   Reviewed
                                                               •   Draft OMB Bill 121, "}"'ederal Acquisition Act of
During this period, the OIG reviewed 238 legislative               1981" We supported the concept of simplified and
matters and 97 proposed regulations and directives.                consolidated statutes affecting Government acqui-
                                                                   sitions while opposing the proposed vesting of con-
                                                                   tracting authority in contracting officers rather
                                                                   than the head of the agency. We suggested deletion
B. Significant Comments                                            of the provision that the Senior Acquisition Exec-
                                                                   utive shall "ensure the coordination of the contract
The OIG provided significant comments on the following             auditor as part of the contract team," since it could
legislation, regulations, orders, and directives:                  lead to conflict with the agency's Office of Inspec-
                                                                   tor General. We recommended certain expansions
  •   H. R. 4054, the Inspector General Act Amend-                 of both the rights of the agency head to examine
      ments of 1988. We supported this bill, which would           books and records relating to contractor and sub-
      strengthen and enhance the Inspector General con-            contractor cost and pricing data, and the authority
      cept throughout the Government. We strongly en-              of the Comptroller General to examine books and
      dorsed the provisions: ensuring uniformity of                records of contractors and subcontractors.
      responsibilities and authorities among the Inspec-
      tors General; applying the authorities and respon-       •   FSS P 4025.5, Proposed Changes to the Surplus Per-
      sibilities of the Act to specifically designated             sonal Property Donation Program. We noted that
      Federal entities, rather than to virtually all Federal       GSA's intention to donate surplus items containing
      entities as did a prior version of the bill; and re-         Polychlorinated Biphenyls (PCBs) to state and local
      quiring separate appropriation accounts for each             donees is not consistent with GSA's policy to elim-
      Office of Inspector General. We generally sup-               inate such items by replacing them with non-PCB
      ported those provisions that increase the reliabil-          items. We recommended that the two operating
      ity and uniformity of Inspector General reports,             units involved meet to ensure that GSA procedures
      while offering a number of specific comments and             are consistent on this sensitive health and safety
      recommendations to strengthen and clarify these              issue.
      provisions. We recommended deletion of that sec-
      tion of the bill establishing a requirement for re-      •   OAD P 5410.1, Proposed Directive on Maintaining
                                                                   Discipline. We suggested that GSA management
      porting on preliminary investigations since such
                                                                   clarify the type of irregularity that must be re-
      reporting could compromise ongoing investiga-
                                                                   ferred to the Office of Inspector General and man-
      tions, and could prejudice prosecutions and civil
                                                                   agement's responsibilities when an investigation
      proceedings resulting from these investigations.
                                                                   will not be performed. We also recommended that
  •   S. 2241, a bill to amend Title 5, United States              penalties for certain types of misconduct be re-
      Code, to prohibit reimbursement by the United                vised to give management broader latitude, other
      States of certain contractor costs. We supported             than removal, for first offenses.




                                                                                                                      25
SECTION VIII-OTHER OIG ACTIVITIES

In addition to detecting problems in GSA operations, the      The OIG's program for reviewing leases prior to award
OIG is responsible for initiating actions to prevent fraud,   provides front-end assurance that GSA is adhering to reg-
waste, and abuse and to promote economy and efficiency        ulations and procedures before awarding selected leases
This section details: the OIG program responding to           involving annual rentals in excess of $200,000. The re-
these legislated prevention responsibilities, and OIG in-     views, although advisory in nature, limit opportunities
volvement in projects sponsored by the President's            for fraud, waste, and abuse in the leasing area.
Council on Integrity and Efficiency (PCIE).
                                                              The program achieved the following results during the
                                                              reporting period:
                                                                 Lease proposals submitted for review ..............           79
A. DIG Prevention Program                                        Lease proposals reviewed ..................................   45
                                                                 Lease proposals with deficiencies .....................       23
The OIG prevention program is comprised of four ele-             Lease proposals with no deficiencies ................         22
ments that simultaneously focus on minimizing oppor-
tunities for fraud, waste, and abuse and promoting            Major deficiencies identified through OIG preaward ad-
awareness among GSA employees. This four-pronged ap-          visory reviews related to: disclosure that a building con-
proach consists of:                                           tained asbestos; negotiations conducted with only one of
  •   Defining areas vulnerable to fraud, waste, and          two offerers after the submission of best and final offers;
      abuse and assessing the degree of vulnerability.        lease file not supporting the award decision; potentially
                                                              non-responsive offerer; and unrealistic proposed rates for
  •   Anticipating potential problem areas and perform-       overtime use, operating escalation, and tax escalation.
      ing front-end reviews to help ensure that programs      Other deficiencies included: incomplete lease files; con-
      will operate within applicable laws, policies, and      flicting lease provisions; no fire and safety review; over-
      procedures.                                             time rates not evaluated for reasonableness; and
  •   Educating GSA employees on the manifestations of        overstated Government occupancy rate.
      fraud and the mechanisms for reporting suspicions
      or allegations to the OIG.
                                                              3. Education
  •   Communicating the OIG presence and establish-
      ing mechanisms that promote a dialogue between          Integrity Awareness Briefings comprise the OIG's pri-
      GSA employees and the OIG.                              mary vehicle for educating employees on the manifesta-
                                                              tions of fraud and abuse. These briefings explain the
                                                              statutory mission of the OIG and the functions executed
1. Definition                                                 by each of our component offices. In addition, through
                                                              case studies and slides, the briefings expose GSA employ-
The OIG considers the identification of vulnerable areas      ees to actual instances of white collar crime in GSA and
to be a major prerequisite to the prevention of fraud,        other Federal agencies.
waste, and abuse. To improve OIG capabilities in this
area, we expended considerable resources during the re-       The OIG conducts two types of Integrity Awareness
porting period on a major review, performed in conjunc-       briefings: general awareness briefings that are geared par-
tion with the General Accounting Office, of GSA's             ticularly to new GSA employees, and program-specific
FY 1987 consolidated financial statements. Further, to        briefings that are targeted to employees working in spe-
fulfill a commitment to the GSA Administrator and the         cific GSA programs. Since the inception of this program
General Accounting Office that the OIG will take lead         in 1981, 11,200 GSA employees have attended Integrity
responsibility for assuring that such financial statement     Awareness Briefings. This total includes the 388 Central
audits are performed on an annual basis in GSA, the OIG       Office and regional employees attending 17 briefings this
worked with agency procurement officials to award a           period.
contract for the audit of GSA's FY 1988 consolidated fi-
nancial statements.
                                                              4. Communication
2. Anticipation                                               A free flow of information between GSA employees and
                                                              the OIG is a vital prevention and detection element. Rec-
OIG anticipation activities this period focused on prea-      ognizing this fact, the OIG issues brochures on the Hot-
ward audits (Sections II through V), review of proposed       line and its Report to the Congress, and displays Hotline
legislation and regulations (Section VII), and continued      posters in all GSA buildings nationwide. We also distrib-
preaward coverage of GSA's leasing program. These ac-         ute an OIG informational brochure to communicate the
tivities stem from the belief that many of tomorrow's         OIG's mission and responsibilities to GSA managers and
problems can be avoided through decisive action today.        employees, and to serve as a recruitment tool.


26
During the reporting period, we received 272 Hotline          3. Computer Systems Integrity Project
calls and letters. Of these, 68 complaints warranted fur-
ther action. We also received 2 referrals from GAO and        The GSA OIG is one of 11 agencies participating in this
20 referrals from other agenciesj 17 of these referrals re-   evaluation of the automated systems application controls
quired further action. The remaining 204 Hotline com-         and data reliability of agencies' contract tracking sys-
plaints required no further action and were closed.           tems. The objective of the review is to assess the integ-
                                                              rity of data reported to the Federal Procurement Data
                                                              System.
B. Projects Sponsored by the                                  This effort will culminate in individual agency reports,
                                                              scheduled for issuance in the third quarter of FY 1989,
   PCIE                                                       followed by a consolidated report.

The Ole continued to participate in interagency projects
sponsored by the pelE. Specific involvement this period
is delineated by project in the paragraphs that follow. In
addition to these efforts, Ole staff members also pro-
vided ongoing support to several PCIE committees.
                                                              4. Governmentwide Review of
1. Review of Relocation Services                                 Accounting Systems
   Contracts                                                  The GSA OIG is participating in this peIE project aimed
                                                              at assessing whether funds for improved Government-
The GSA OlG is the lead agency on this peIE review            wide accounting systems are well spent, and whether
aimed at: evaluating the utilization and administration       there are adequate audit trails and internal controls. We
of relocation services contracts throughout the Govern-       assisted in the development of two questionnaires. The
mentj and identifying efficient and effective ways to pro-    first related to management's efforts to establish a single
vide needed services.                                         integrated financial management system. The second ad-
                                                              dressed the OIG's audit involvement in the process.
Questionnaires were directed to the peIE member agen-
cies to obtain information on the scope and nature of         The questionnaires have been sent to 22 Federal Depart-
their relocation services contracts. Evaluation of these      ments/ Agencies and will be analyzed when returned.
questionnaires has been completed and a review guide is       The results of the project will be summarized in a con-
to be completed in October 1988. The review by partici-       solidated report.
pating agencies is scheduled to begin in November 1988,
and draft reports will be submitted to each agency by
March 1989.



2. Auditor Job Analysis Project
                                                              5. Review of Advisory and Assistance
The GSA OIG participated, in conjunction with other
Federal agencies, in this evaluation of the applicants re-       Services
ferred by the Office of Personnel Management (OPM) for
entry level auditor positions. The review evaluated           The GSA OIG is participating in this three-phased peIE
whether methods for screening applicants for placement        review. The project was initiated to evaluate the Govem-
on OPM registers required change.                             ment's use of consultant contracts.

The CSA OIG assisted in the development of two ques-          The first phase involved a compilation and summary of
tionnaires. The first, directed to supervisors, focused on    reports issued by peIE members to date on consultant
the specific performance levels expected of GS-5, 7, and 9    contracts; the summary was completed in September
auditors and the background necessary to perform at           1988. The second phase, scheduled for completion in Feb-
these levels. The second, targeted at auditors, solicited     ruary 1989, involves individual OIG reviews of their
information on the backgrounds possessed by incum-            agency's compliance with Office of Management and
bents and the nature of the work they are currently           Budget guidelines for awarding consultant service con-
performing.                                                   tracts. The third phase involves reviews of FY 1987 con-
                                                              tracts to determine the extent to which agencies followed
The questionnaires were returned and analyzed. The            sound procurement practices and utilized the services to
peIE report was issued to OPM in September 1988.              be provided under the terms of these contracts.




                                                                                                                      27
6. Review of the Characteristics of                          OIGs. Questionnaires were distributed to the OIGs, fo-
                                                             cusing on investigative cases closed during February
   Closed Investigative Cases                                1988.
The GSA OIG is a participating member in this PCIE re-       The questionnaires were returned and are being ana-
view aimed at identifying the major characteristics of the   lyzed. A consolidated report is scheduled for issuance in
investigative work currently being performed by the          November 1988.




28
APPENDICES
APPENDIX I-AUDIT REPORT REGISTER

Assignment                                                                                                Date of
Number       Title                                                                                        Report



PBS          Contract Audits
A80373       Preaward Audit of Architect and Engineering Services Contract: Roger Johnson - Richard       04/04/88
             Smith Architects Inc., Solicitation No. GS-05-BC-P-87-GBC-0106
A80259       Audit of Termination Proposal: Tomi, Inc., Contract No. GS-05F-13580                         04/08/88
A80291       Preaward Audit of Indefinite Quantity Contract: National Institute of Building Sciences,     04114/88
             Contract No. GS 11 P88EGD0131
A80389       Review of Proposal for Initial Pricing Under Solicitation No. GSllP87MKD9030: Ellerbe        04114/88
             Associates, Incorporated
A80l50       Preaward Audit of a Claim for Increased Costs: MCC Powers, Inc., Second-tier                 04121188
             Subcontractor to Terminal Construction Corporation, Contract No. GS-02P-23256
A80328       Audit of Termination Proposal: Hankins Construction Co., St. Louis, Missouri, Contract       04125/88
             No. GS06P86GYC0034
A80385       Preaward Audit of Architect and Engineering Services Contract: Cardenas - Saleedo and        04125/88
             Associates, Inc.!Booth Keirsey, Contract No. GS-07P-87-HUD-0268
A60328       Audit of Termination Proposal: Minority Enterprises, Inc., Contract No. GS-02P-23351         04127/88
A80080       Preaward Audit of a Claim for Increased Costs: Berti Company, Subcontractor to Hyman/        04127/88
             White, Contract No. GS-OlB-02294
A80414       Preaward Audit of Architect and Engineering Services Contract: Technical Associates,         04127/88
             Inc., Solicitation No. 02-PPC-CM-087-0509
A80346       Preaward Audit of Supplemental Architect and Engineering Services Contract: Fuligni and      04129/88
             Fragola, Architects, Solicitation No. 02-PPC-CM-087-0510
A80474       Preaward Audit of Value Change Proposal: J.S. Alberici Construction Co., Inc., Contract      04129/88
             No. GS06P87GYC0061
A80419       Preaward Audit of Supplemental Architect and Engineering Services Contract: Witsell,         05/02/88
             Evans & Rasco, P.A., Contract No. GS-07P-88-HUD-0029
A80249       Audit of a Claim for Bid Preparation and Protest Costs: Greenebaum and Rose Associates,      05/03/88
             Solicitation No. 86-070
A80473       Preaward Audit of Value Change Proposal: J.S. Alberici Construction Co., Inc., Contract      05/06/88
             No. GS06P88GYC0009
A80238       Audit of Termination Proposal: Breckco Construction Company, Inc., Contract No.              05/09/88
             GS06P87GYC0049(N)
A80053       Audit of Lease Alteration Proposal: Willeo Construction Co., Inc., Lease No. GS-llB-         05111188
             60264
A80384       Preaward Audit of Lease Escalation Proposal: Sunlight Manor Federal Office Center,           05111/88
             Solicitation No. GS-08B-09916
A80313       Postaward Audit of Incurred Costs: Sverdrup Corporation, Contract No. GS-09P-87-LTC-         05112/88
             0151
A80363       Preaward Audit of Architect and Engineering Services Contract: Delaware Valley Roofing       05/13/88
             Consultants, Inc., Solicitation No. ZDE-70053
A80l70       Preaward Audit of Lease Escalation Proposal: Total Management, Inc., Lease No. GS-03B-       05117/88
             06437
A70783       Review of Subcontractor Proposal to Willeo Construction Company, Inc., for Initial Pricing   05119/88
             Under GSA Lease No. GS-llB-60264, American Iron Works, Inc.

30
A80455   Preaward Audit of Architect and Engineering Services Contract: Ralph Hahn and               05/19/88
         Associates, Inc., Solicitation No. GS-05-P-S7-GBC-0l08
A80253   Preaward Audit of Architect and Engineering Services Contract: Oliver and Becica, ALA,      OS/20/88
         P.A, Solicitation No. 02-PPC-CM-087-0508
A80432   Preaward Audit of Subcontractor Backcharges Related to a Claim for Increased Costs:         OS/23/88
         Terminal Construction Corp., Contract No. GS-02P-23256
A80099   Preaward Audit of a Claim for Increased Costs: Caddell Construction Co., Inc., Contract     OS/25/88
         No. GS-OSB-05100
A80309   Audit of Change Order Proposal: Foulger-Pratt Construction, Inc., Contract No. GS-llP-      OS/25/88
         8701
A80274   Preaward Audit of Supplemental Architect and Engineering Services Contract: Custodio,       OS/26/88
         Roe &. Associates, Solicitation No. 02-PPC-CM-OS7-0511
A80468   Preaward Audit of Architect and Engineering Services Contract: 1. William Sizeler and       OS/26/88
         Associates, Contract No. GS-07P-SS-HUD-0066
A80441   Preaward Audit of Supplemental Architect and Engineering Services Contract: Mesch           05/31/88
         Engineering, P.C, Solicitation No. 02-PPC-CM-087-0510
A80234   Preaward Audit of Supplemental Architect and Engineering Services Contract: Chapman         06/02/88
         and Biber, ALA, Solicitation No. 02-PPC-CM-OS7-0509
A80212   Preaward Audit of Architect and Engineering Services Contract: Cape Professional            06/06/88
         Corporation, Solicitation No. 02-PPC-CM-OS7-0507
AS031S   Preaward Audit of Lease Escalation Proposal: B.G.W Limited Partnership, Lease No. GS-       06/06/88
         03B-5803
A80254   Preaward Audit of Lease Alteration Proposal: IRS National Computer Center,                  06/0S/88
         Martinsburg, West Virginia, Lease No. GS-03B-4672, Development Company of America
ASOl06   Preaward Audit of Architect and Engineering Services Contract: Mills, Clagett &. Wening,    06/14/88
         Chartered, Solicitation No. GSllP87MKC9020
A80427   Preaward Audit of Architect and Engineering Services Contract: Settles Associates, Inc.,    06/22/88
         Contract No. GSllPS8EGD0123
AS0653   Preaward Audit of Architect and Engineering Services Contract: Irving E Lieberman and       06/23/88
         Associates, Inc., Solicitation No. GS-05P-88-GBC-0043
AS0410   Preaward Audit of Overhead Expenses and Rate: T &. T Contractors, Inc., Contract No.        06/24/88
         GS11 P86MKC7238
A80439   Preaward Audit of Architect and Engineering Services Contract: Architectural Interiors,     06/24/88
         Inc., Solicitation No. GSllPS8EGD0126
AS0379   Preaward Audit of Lease Alteration Proposal: Clarendon Metro Limited Partnership,           06/27/88
         Lease No. GSllB60231
AS0496   Preaward Audit of a Claim for Increased Costs: Unistrut Interior Building Systems, Second   06/27/88
         Tier Subcontractor to Hyman/White, Contract No. GS-01B-02294
AS0500   Preaward Audit of Lease Escalation Proposal: C &. C Investments, Lease No. GS-09B-          06/30/88
         82252
AS0501   Preaward Audit of Lease Escalation Proposal: C &. C Investments, Lease No. GS-09B-          06/30/88
         06600
A80749   Preaward Audit of Lease Escalation Proposal: Ocmulgee Fields, Inc., Lease No. GS-04B-       06/30/88
         15226
AS0453   Audit of a Claim for Increased Costs: Centex Construction Co., Inc., Contract No. GS-       07/05/88
         HB-19066
AS0614   Preaward Audit of Change Order Proposal: Webb Electric Company of Florida, Inc.,            07/o6/S8
         Contract No. GS06P86GYC0098
AS0639   Preaward Audit of Supplemental Architect and Engineering Services Contract: Federman        07/07/S8
         Construction Consultants, Inc., Solicitation No. GS-02P-8S-CUD-0087
AS0525   Postaward Audit of Cost or Pricing Data: Change Order No.2, Palmetto Depot                  07/11/88
                                                                                                           31
A80625   Preaward Audit of Real Estate Tax Escalation Proposal: South Coast Air Quality            07/11/88
         Management District, Lease No. GS-09B-82247
A80327   Preaward Audit of Change Order Proposal: Grunley- Walsh Construction Co., Inc.,           07/13/88
         Contract No. GS-llP86MKC7304
A80440   Preaward Audit of Architect and Engineering Services Contract: Hellmuth, Obata, &         07/13/88
         Kassabaum, Inc., Contract No. GSllP88EGCOl04
A80665   Preaward Audit of Small Business Administration 8(A) Pricing Proposal: World Wide         07/15/88
         Terminal Service Corp. (S.L.), Solicitation No. GS-06P-88-GXC-0l53
A80684   Preaward Audit of Architect and Engineering Services Contract: Progressive Architects,    07/15/88
         Engineers, and Planners, Inc., Solicitation No. GS05P88GBD0052
A80672   Review of Tax Escalation: 285 Plus Park Boulevard, Lease No. GS-04B-22292, Nashville,     07/19/88
         Tennessee
A80732   Preaward Audit of Lease Escalation Proposal: Detroit Associates Limited Partnership,      07/19/88
         Lease No. GS-05B-9585
A80792   Preaward Audit of Architect and Engineering Services Contract: Ellerbe Becket, Inc.,      07/19/88
         Contract No. GSllP88EGCOl04
A80793   Preaward Audit of Architect and Engineering Services Contract: Greenhorn and O'Mara,      07/20/88
         Inc., Contract No. GSllP88EGCOl04
A80794   Preaward Audit of Architect and Engineering Services Contract: MMP International, Inc.,   07/21/88
         Contract No. GSllP88EGCOl04
A80512   Preaward Audit of Architect and Engineering Services Contract: Welton Becket              07/22/88
         Associates, Contract No. GSllP87MKD9030
A80472   Preaward Audit of Change Order Proposal: J.S. Alberici Construction Company, Inc.,        07/25/88
         Contract No. GS06P88GYC0009
A80750   Preaward Audit of Claim: James R. Keogh & Associates, Inc., Contract No. GS-04P-88-       07/25/88
         EX-D0021
A80741   Preaward Audit of Architect and Engineering Services Contract: The George S. Rider        07/27/88
         Company, Solicitation No. GS05P88GBC0041
A80497   Preaward Audit of Architect and Engineering Services Contract: James Posey Associates,    07/29/88
         Inc., Project No. ZDE-70061
A80575   Preaward Audit of Change Order Proposal: J.S. Alberici Construction Company, Inc.,        07/29/88
         Contract No. GS06P87GYC0061
A80571   Preaward Audit of a Claim for Increased Costs: The Davis Corporation, Contract No. GS-    08/03/88
         llB-38074
A80765   Preaward Audit of a Claim for Increased Costs: The Davis Corporation, Contract No. GS-    08/08/88
         llB-38074
A70627   Preaward Audit of a Claim for Increased Costs: George Hyman Construction Company          08/11/88
         and Richard White Sons, Incorporated, A Joint Venture, Contract No. GS-OlB-02294
A80737   Preaward Audit of Lease Escalation Proposal: Golden Triangle Management Group, Inc.,      08/16/88
         Lease No. GS-08B-09899
A80608   Preaward Audit of Cost or Pricing Data: North American Construction Corp., Solicitation   08/17/88
         No. RFP-PBS-9PPC-88-21663
A80652   Preaward Audit of Pricing Proposal: Dun-Well Services, Inc., Solicitation No.             08/24/88
         GS05P88GAC0038
A80661   Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Williamson &       08/24/88
         Son Janitorial Service, Inc., Solicitation No. GS-07P-88-HTC-0l60
A80707   Preaward Audit of Sole-Source Letter Contract: Rampart Construction Associates,           08/26/88
         Inc., Subcontractor to Benjamin Electrical Engineering Works, Inc., Contract No. GS-
         02P-88CUC01l8
A80657   Preaward Audit of a Claim for Increased Costs: Ace Sprinkler, Inc., Subcontractor to      08/29/88
         Newco, Inc., Contract No. GS05P86GBC0022

32
AS06S5   Preaward Audit of a Claim for Increased Costs: Newco, Inc., Contract No.                   08/30/88
         GS05PS6GBC0022
ASOS64   Preaward Audit of Architect and Engineering Services Contract: Clio Group, Inc., Con-      OS/30/88
         sultant to Ueland and Junker, Architects and Planners, Project No. ZPA-70047
AS072S   Preaward Audit of Indefinite Quantity Contract: National Institute of Building Sci-        09/06/88
         ences, Contract No. GS11PSSEGD0l31
AS0747   Audit of First and Second Invoices Submitted by Real Estate Management Services,           09/09/88
         Inc., Contract No. GS-04P-S8-EWC-OI03
ASOS31   Preaward Audit of Cost or Pricing Da ta: White Glove Service Systems, Inc., Solicitation   09/09/88
         No. GS-09P-SS-KSC-OlS4
ASOS55   Preaward Audit of Lease Escalation Proposal: Detroit and Canada Tunnel Corporation,        09/09/88
         Lease No. GS-05B-12863
ASOS68   Preaward Audit of Architect and Engineering Services Contract: Faisant Associates,         09/09/88
         Inc., Subcontractor to Gaudreau, Inc., Project No. ZDE-70070
ASOS05   Preaward Evaluation of Pricing Proposal: Burks Cleaning and Snow Removal, Inc., So-        09/12/88
         licitation No. GS-09P-SS-KSC-0l25
ASOS47   Preaward Audit of Architect and Engineering Services Contract: Vincent Chan and As-        09/14/88
         sociates, Inc., Contract No. GSllPSSEGDOl72
ASOS30   Preaward Audit of Architect and Engineering Services Contract: Roy P Hanover and           09/19/8S
         Associates, Contract No. GS-04P-8S-EXC-0044
ASOS59   Preaward Audit of Cost or Pricing Data: Universal Building Maintenance, Solicitation       09/20/88
         No. GS-09P-S8-KSC-OlSl
ASOSS5   Preaward Audit of Lease Escalation Proposal: City Centre Building, Lease No. GS-04B-       09/20/88
         21159
AS0671   Preaward Audit of Lease Alteration Proposal: Clarendon Metro Limited Partnership           09/21/8S
         (Phase II), Lease No. GSllB60231
AS059S   Preaward Audit of Architect and Engineering Services Contract: Cator, Ruma and As-         09/22/88
         sociates, Co., Contract No. GS-07P-88-HUC-0091
AS0598   Preaward Audit of Architect and Engineering Services Contract: Allred/Fisher Archi-        09/22/88
         tects/Engineers, pc., Contract No. GS-07P-8S-HUC-0091
AS0598   Preaward Audit of Architect and Engineering Services Contract: High Country Engi-          09122/8S
         neering, Contract No. GS-07P-88-HUC-0091
AS0668   Audit of Accounting System: Real Estate Management Services, Inc., Peachtree Sum-          09/22/88
         mit Building, Atlanta, Georgia
ASOS43   Preaward Audit of Architect and Engineering Services Contract: Patrick and Associ-         09/22/88
         ates, Inc., Solicitation No. GS05P88GBC0l56
ASOS44   Preaward Audit of Architect and Engineering Services Contract: Jeffrey A. Jones and        09/22/88
         Associates, Inc., Subcontractor to Patrick and Associates, Inc., Solicitation No.
         GS05P8SGBC0156
ASOS45   Preaward Audit of Architect and Engineering Services Contract: Paul J. Ford and Com-       09/22/88
         pany, Subcontractor to Patrick and Associates, Inc., Solicitation No. GS05P88GBC0l56
ASOS06   Preaward Audit of Cost and Pricing Data: Q-l Service, Solicitation No. GS-09P-S8-          09/23/88
         KSC-0l27
AS0963   Preaward Audit of Architect and Engineering Services Contract: The Ballinger Com-          09/26/88
         pany, Project No. IPA-56023
AS0779   Audit of a Claim for Increased Costs: Tour & Anderson, Inc., Contract No. GS-11B-          09/27/8S
         18700
ASOS63   Preaward Audit of Architect and Engineering Services Contract: The Energy Consor-          09/27/88
         tium, Inc., Consultant to Ueland and Junker, Architects and Planners, Project No.
         ZPA-70047
AS0043   Audit of a Claim for Increased Costs: John C. Grimberg Co., Inc., Contract No. GS-llB-     09/28/88
         IS700

                                                                                                          33
A80674   Preaward Audit of Architect and Engineering Services Contract: Metcalf/Keyes, Con-     09/30/88
         don, and Florance, Contract No. GS-03B-99021
A80706   Preaward Audit of Sole-Source Letter Contract: Benjamin Electrical Engineering         09/30/88
         Works, Inc., Contract No. GS-02P-88CUC01l8


PBS      Internal Audits
A80101   Review of New Roof, Brickell Plaza Federal Building, Miami, Florida                    04/01188
A80289   Review of the Procurement of Lease Space for the Department of Energy in Oak Ridge,    04/01188
         Tennessee
A80032   Review of Fire Sprinkler System at the Federal Building - U.S. Courthouse, Orlando,    04/08/88"
         Florida
A60411   Final Interim Audit Report - Building Purchase Program, Purchase of the Peachtree      04115/88
         Summit Building, Atlanta, Georgia
A80283   Review of Escalation Payments at the BP Building, Macon, Georgia                       04120/88
A80463   Preaward Lease Review: Court House Plaza, Burlington, VT, Lease No. GS-OlB(PEL)-       04125/88
         03586 Neg.
A80465   Preaward Lease Review: IRS Building, Atlanta, Georgia, Lease No. GS-04B-28206          04128/88
A70640   Overpayments for Elevator Maintenance at the John Weld Peck Federal Building and the   05104/88
         U.S. Post Office and Courthouse, Cincinnati, Ohio
A80506   Preaward Lease Review: 75 Hawthorne Street, San Francisco, California, Lease No. GS-   05/06/88
         09B-68322
A80541   Preaward Lease Review: Norfolk Commerce Center I, 5505 Robin Hood Road, Norfolk,       05/06/88
         VA, Lease No. GS-03B-89035
A70601   Review of the Repair and Alteration Prospectus Project at the Federal Building and     05113188
         Courthouse, Hato Rey, Puerto Rico
A80390   Preaward Lease Review: 5799 Broadmoor, Mission, Kansas, Lease No. GS-06P-88714         05118/88
A80454   Preaward Lease Review: 16 Executive Park Drive, Atlanta, Georgia, Lease No. GS-04B-    05118/88
         28184
A80467   Review of Alleged Unnecessary Painting and Remodeling, 2320 LaBranch, Houston,         05118/88
         Texas, O.I.G. Hotline Complaint Number HO-88-0210
A80078   Review of the Use of the Quality Solicitation for Offers in Region 6                   05119/88
A80452   Preaward Lease Review: Control Data Corporation, 1151 Seven Locks Road, Rockville,     05119/88
         Maryland, Lease No. GS-llB-80222
A80521   Preaward Lease Review: 337 Ballardvale Street, Wilmington, MA, Lease No. GS-           05120/88
         OlB(PEL)-03597 Neg.
A80588   Preaward Lease Review: 626 W Jackson Boulevard, Chicago, Illinois, Lease No. GS-       05125/88
         05B-14384
A80282   Preaward Lease Review: Arlington Square Limited Partnership, 4401 N. Fairfax Drive,    05126/88
         Arlington, VA, Lease No. GS-UB-80228
A80568   Preaward Lease Review: 133 Portland Street, Boston, MA, Lease No. GS-OlB(PEL)-         05126/88
         03594 Neg.
A80461   Preaward Lease Extension Review: Broyhill Building, 1000 N. Glebe Road, Arlington,     05127/88
         Virginia, Lease No. GS-llB-30042
A80466   Preaward Lease Review: 3250 Wilshire Blvd., Los Angeles, California, Lease No. GS-     05/31/88
         09B-87686
A80607   Preaward Lease Review: Top Flight Air Park, Route 12, Showalter Road, Hagerstown,      06/03/88
         MD, Lease No. GS-03B-89027
A80063   Review of Award and Administration of Guard Contracts in Region 2                      06/06/88
A80S11   Review of A·76 Study for Mechanical Services, Raleigh, North Carolina                  06/06/88

34
A80273    Review of Postaward Lease Administration and Management of Lease No. GS-05B-            06/14/88
          14609,3123 N. Pulaski Road, Chicago, Illinois
A80618    Preaward Lease Review: Quail Crest Place and Wakarusa Boulevard, Lawrence, Kansas,      06/14/88
          Lease No. GS-06P-88719
A80073    Review of Contracts for Security Systems Service and Equipment                          06/15/88
A80638    Preaward Lease Review: Internal Revenue Service, Brooklyn, New York, Lease No. GS-      06/16/88
          02B-22463
A80648    Preaward Lease Review: Norfolk Commerce Park, Walmer Avenue, Norfolk, Virginia,         06/16/88
          Lease No. GS-03B-89041
A80670    Preaward Lease Review: 375 Jackson, St. Paul, MN, Lease No. GS-05B-14717                06120/88
A80630    Review of Region 4 Construction Scheduling                                              06121/88
A80589    Preaward Lease Review: National Association of Letter Carriers Building, 100 Indiana    06122/88
          Avenue, NW, Washington, DC, Lease No. GS-llB-80221
A80656    Preaward Lease Review: 10 Dorrance Street, Providence, RI, Lease No. GS-OlB(PEL)-       06122/88
          03595 NEG.
A80582    Preaward Lease Review: Judiciary Tower Building, 450 H Street, NW, Washington, DC,      06123/88
          Lease No. GS-llB-80236
A80619    Preaward Lease Review: 1880 Regal RoW; Dallas, Texas, Lease No. GS-07B-13229            06123/88
A80643    Preaward Lease Review: 10 United Nations Plaza, San Francisco, California, Lease No.    06124/88
          GS-09B-87845
A80698    Preaward Lease Review: Northwest Bank Building, 1405 Eye St., NW, Washington, DC,       06124/88
          Lease No. GS-03B-05543
A50638    Technical Analysis Performed in Support of JI Case No. 160179, Front-End-Loading,       06126/88
          Boston Federal Office Building, Causeway Street, Boston, Massachusetts
A80413    Review of Vacant Space at the B.H. Whipple Federal Building, Fort Snelling, Minnesota   06127/88
A80061    Review of Region 6's Administration of Lease No. GS-06B-10967                           06/30/88
A80341    Review of the Construction Contract Award Process in the National Capital Region for    06/30/88
          the Replacement of Polychlorinated Biphenyl (PCB) Contaminated Electrical Equip-
          ment
A80559    Review of the Operation and Maintenance of a Leased Building, Lease No. GS-06B-         06/30/88
          10967
A80561    Preaward Audit of a Lease: Claim for Liability Insurance Costs, World Trade Center,     07107/88
          Lease No. GS-02B-15370
A 70640   Review of GSA Elevator Maintenance Contracts, Region 5                                  07108/88
A80398    Review of Lease No. GS-04B-28048, Jacksonville, Florida                                 07/11/88
A80356    Review of New Roof, U.S. Post Office & Courthouse, Beaumont, Texas                      07112/88
A80689    Preaward Lease Review: 50 Staniford Street, Boston, Massachusetts, Lease No. GS-        07112/88
          OlB(PEL)-03598 NEG.
A80360    Review of Building Management, Oklahoma City Field Office, Region 7                     07113/88
A80742    Preaward Lease Review: Third and Broad Building, Seattle, Washington, Lease No. GS-     07/13/88
          10B-05440
A50226    Review of Indefinite Quantity Repair and Alteration Contracts in the National Capital   07114/88
          Region
A80337    Review of Appraisal Reports Used in GSA's Leasing Program, Region 4                     07114/88
A80780    Review of Award Factors, Lease No. GS-04B-28179, Columbus, Georgia                      07118/88
A80213    Review of Postaward Lease Administration and Management of Lease No. GS-05B-            07/19188
          14296,6000 Lakeside Boulevard, Indianapolis, Indiana
A70564    Review of the Asbestos Control Program in Region 5                                      07121/88

                                                                                                        35
A80285   Review of Elevator Maintenance, Region 4 (Five Buildings)                                07/21/88
A80746   Preaward Lease Review: 1745 Jefferson Davis   Highwa~   Arlington, Virginia, Lease No.   07/22/88
         GS-llB-80254
A80820   Preaward Lease Review: One Rodney Square, 920 King Street, Wilmington, Delaware,         07/22/88
         Lease No. GS-03B-89026
A80828   Preaward Lease Extension Review: 4600 N. Fairfax Drive, Arlington, Virginia, Lease       07/22/88
         No. GS-llB-60206
A80818   Preaward Lease Review: 175 W Jackson Boulevard, Chicago, Illinois, Lease No. GS-05B-     07/25/88
         12447
A80157   Review of GSA's Region 4 Management of Excess Federal Buildings                          07/27/88
A80701   Preaward Lease Review: 328 Gibraltar Drive, Sunnyvale, California, Lease No. GS-         07/27/88
         09B-88297
A80814   Preaward Lease Review: New Federal Building, Chicago, Illinois, Solicitation No. GS-     07/27/88
         05B-14850
A80261   Review of Fire Sprinkler System at the Brickell Plaza Federal Building, Miami, Florida   07/28/88
A80596   Preaward Lease Review: Fairchild Realt~ 300 West Service Road, Washington Dulles In-     07/29/88
         ternational Airport, Chantill~ Virginia, Lease No. GS-llB-80250
A80801   Preaward Lease Review: Piccard Office Building, 1390 Piccard Drive, Rockville, Mary-     07/29/88
         land, Lease No. GS-llB-80411
A80679   Review of A-76 Study: Savannah, Georgia                                                  08/04/88
A80800   Preaward Lease Extension Review: One Vintage Park, 45355 Indian Creek Drive, Ster-       08/04/88
         ling, Virginia, Lease No. GS-llB-80249
A80772   Preaward Lease Review: Courtside Plaza, Richardson, Texas, Lease No. GS-07B-13244        08/09/88
A80876   Preaward Lease Review: The Atrium Building, 381 Elden Street, Herndon, Virginia,         08/10/88
         Lease No. GS-llB-80407
A80890   Preaward Lease Review: Two Owings Mills Corporate Center, 10461 Mill Run Circle,         08/11/88
         Owings Mills, MD, Lease No. GS-03B-89054
A80775   Review of Actions Taken to Establish an Interim Child Care Facility in South Kansas      08/18/88
         Cit~ Missouri

A80768   Advisory Review of the Use of the Retrofill Process in Eliminating PCB Contamination     08/22/88
A80621   Review of Fire Sprinkler System at the U.S. Courthouse, Pensacola, Florida               08/23/88
A80658   Postaward Lease Review: 5860 Nolensville Road, Nashville, Tennessee, Lease No. GS-       08/25/88
         04B-28238
A70287   Review of the Buildings Management Field Office Operations, Region 3                     08/26/88
A80569   Review of the A-76 Program, Region 9, Project 09PMM088                                   08/26/88
A80915   Preaward Lease Review: Illinois Business Center, 400 W Monroe Street, Springfield, Il-   08/30/88
         linois, Lease No. GS-05B-14649
A80826   Preaward Lease Review: 4501 Ford Avenue, Alexandria, Virginia, Park Center Office        08/31/88
         Building IV, Lease No. GS-l18-80402
A80916   Preaward Lease Review: 200 W Adams, Chicago, Illinois, Lease No. GS-05B-14517            09/02/88
A80920   Preaward Lease Review: Trucker's Lane, Knoxville, Tennessee, Lease No. GS-04B-           09/20/88
         28262
A80531   Review of A-76 Most Effective Organization, Implementation for Thomasville, Georgia      09/23/88
         and Tampa, Florida Studies
A80882   Review of Above Building Standard Lease Alterations, 1801 L Street, NW; Washington,      09/23/88
         DC
A80907   Review of Complaint About the Award of Building Operations and Mechanical Main-          09/23/88
         tenance Contract, Federal Building & Post Office, Courthouse, Jacksonville, Florida
A80984   Review of A-76 Mechanical Services   Stud~   Miami, Florida                              09/26/88

36
A80827   Preaward Lease Extension Review: 1820 N. Fort Meyer Drive, Arlington, Virginia,          09/28/88
         Lease No. GS-llB-60205
A70S19   Advisory Review of Guard Service Provisions for CFM Contracts in the National Cap-       09/29/88
         ital Region
A80981   Preaward Lease Extension Review: Commonwealth Building, 1320 Wilson Boulevard,           09/29/88
         Arlington, Virginia, Lease No. GS-03B-90035
A81002   Preaward Lease Review: Curtis Center, Independence Square West, Philadelphia, PA,        09/30/88
         Lease No. GS-03B-89056


FSS      Contract Audits
A8022S   Preaward Audit of Cost or Pricing Data: TAB Products Company, Solicitation No.           04/01188
         FCNO-F-2027-N-9-22-87
A80299   Preaward Audit of Cost or Pricing Data: H.D. Hudson Manufacturing Company, Solic-        04/04/88
         itation No. 7FXI-87-DD785-G6-N
A80438   Preaward Audit of Multiple Award Schedule Contract: Airtech Corp., Solicitation No.      04/06/88
         7PM -53024/R5I7FX
AS0380   Postaward Audit of Multiple Award Schedule Contract: Waters, Division of Millipore,      04/07/88
         Contract No. GS-00F-78827 for the Period 6/1/S5 to 5/31/88
A80268   Preaward Audit of Multiple Award Schedule Contract: Beckman Instruments, Inc., AI-       04/13/88
         tex Division, Solicitation No. FCGS-Z3-400l2-N-1l-17-87
A8033S   Preaward Audit of Multiple Award Schedule Contract: Multigraphics, a Division of AM      04/14/88
         International, Inc., Solicitation No. FCGE-A3-75436-N
A80l27   Preaward Audit of Multiple Award Schedule Contract: Supreme Equipment Corpora-           04/18/88
         tion, Solicitation No. FCNO-J2-2027-N-9-22-S7
A80242   Preaward Audit of Multiple Award Schedule Contract: Hewlett Packard Company, So-         04/19/88
         licitation No. FCGS-Z3-400l2-N-1l-17-87
A80399   Postaward Audit of Multiple Award Schedule Contract: Keyes Fibre Company, Contract       04/20/88
         No. GS-07F-14894 for the Period 1/22/88 to 5/1/89
A80417   Preaward Audit of Cost or Pricing Data: Hamilton Products Group, Inc., Solicitation      04/22/88
         No. FNCO-S7-CS03-B-3-3-88
AS0321   Preaward Audit of Multiple Award Schedule Contract: Davlin Paint Company, Inc., So-      OS/02/88
         licitation No. 10PN-ZNS-4249
A80364   Preaward Audit of Cost or Pricing Data: Jarke Corporation, Solicitation No. 10PN -NES-   OS/02/88
         0379
A80392   Preaward Audit of Cost or Pricing Data: Davlin Paint Company, Inc., Solicitation No.     OS/02/88
         10PN-ZNS-4249
A80393   Postaward Audit of Multiple Award Schedule Contract: Diversey Wyandotte Corpora-         OS/OS/88
         tion, Contract No. GS-09F-43224 for the Period 5/7/85 to 3/31/88
A80369   Preaward Audit of Multiple Award Schedule Contract: Security Engineered Machinery        OS/10/88
         Co., Inc., Solicitation No. FCGE-A3-75436-N
A80442   Preaward Audit of Multiple Award Schedule Contract: Bear Automotive Service Equip-       OS/11/88
         ment Company, Solicitation No. 7PM-53260/MSI7FX
A80296   Preaward Audit of Multiple Award Schedule Contract: Hoechst Celanese Corporation,        OS/13/88
         Solicitation No. FCGE-A3-7S436-N
A80447   Preaward Audit of Multiple Award Schedule Contract: Mosler, Inc., Solicitation No.       OS/16/88
         FCNO-S 7-C803-B-3-3-88
A80358   Preaward Audit of Multiple Award Schedule Contract: Norris Paint Company, Solici-        OS/18/88
         tation No. 10PN-ZNS-4249
A80556   Preaward Audit of Multiple Award Schedule Contract: Gun Stuff, Solicitation No.          OS/23/88
         7FXG-M3-8S-8411-B

                                                                                                        37
A80336   Preaward Audit of Multiple Award Schedule Contract: A.B. Dick Compan)j Solicitation     OS/24/88
         No. FCGE-A3-75436-N
A80492   Preaward Audit of Multiple Award Schedule Contract: Nicolet Instrument Corpora-         OS/24/88
         tion, Solicitation No. FCGS-X4-38011-N-4-12-88
A80420   Preaward Audit of Multiple Award Schedule Contract: Jay Bee Manufacturing, Inc., So-    OS/25/88
         licitation No. FCGE-A3-75436-N
A80408   Preaward Audit of Multiple Award Schedule Contract: Professional Office Products,       OS/27/88
         Solicitation No. FCGE-A3-75436-N
A80498   Preaward Audit of Multiple Award Schedule Contract: Systron Donner Corp., Solici-       05/31/88
         tation No. FCGS-X4-38011-N-4-12-88
A80397   Preaward Audit of Cost or Pricing Data: Air Logistics Corporation, Solicitation No.     06/02/88
         7FXI-88-M7193/C6I7FX
A80423   Preaward Audit of New Item Introductory Schedule Contract: Sunshine Makers, Inc.,       06/02/88
         Solicitation No. 10PN-SPS-6l52/88-02
A80549   Preaward Audit of Multiple Award Schedule Contract: Second Chance Body Armor,           06/02/88
         Inc., Solicitation No. 7FXG-M3-88-8411-B
A80401   Preaward Audit of Multiple Award Schedule Contract: Visual Graphics Corp., Solici-      06/03/88
         tation No. FCGE-A3-75436-N-0l-05-88
A80557   Preaward Audit of Multiple Award Schedule Contract: Security Search Product Sales,      06/03/88
         Solicitation No. 7FXG-M3-88-8411-B
A80449   Preaward Audit of Cost or Pricing Data: Coyne Mattress Co., Ltd., Solicitation No.      06/09/88
         9FBG-OLJ-N-A0903/88
A80435   Preaward Audit of Multiple Award Schedule Contract: Westinghouse Furniture Sys-         06/10/88
         tems, Solicitation No. FCNO-87-B70l-B-1-26-88
A80495   Preaward Audit of Multiple Award Schedule Contract: Structural Concepts Corpora-        06/15/88
         tion, Solicitation No. FCNO-87-B701-B-1-26-88
A80429   Preaward Audit of Multiple Award Schedule Contract: Herman Miller, Inc., Solicitation   06/17/88
         No. FCNO-87-B70l-B-1-26-88
A80433   Preaward Audit of Multiple Award Schedule Contract: Sun Electric Corporation, Solic-    06/20/88
         itation No. 7PM-53260/M5I7FX
A80475   Preaward Audit of a Claim for Increased Costs: Coastal Sheet Metal Compan)j Con-        06/21/88
         tract No. GS-05F-13505
A80542   Preaward Audit of Multiple Award Schedule Contract: LeCroy Corporation, Solicita-       06/22/88
         tion No. FCGS-X4-38011-N
A70715   Preaward Audit of a Claim for Increased Costs: ARA Services, Inc., Contract No. GS-     06/23/88
         OWS-52661
A80520   Preaward Audit of Multiple Award Schedule Contract: Wavetek San Diego, Inc., Solic-     06/27/88
         itation No. FCGS-X4-38011-N-4-12-88
A80316   Preaward Audit of Multiple Award Schedule Contract: Industrial Acoustics Compan)j       06/29/88
         Inc., Solicitation No. 7PM-53l53/L5/7FX
A80353   Preaward Audit of Multiple Award Schedule Contract: Exide Corporation, Solicitation     06/29/88
         No. 7PM-53030/ A617FX
A80428   Preaward Audit of Multiple Award Schedule Contract: Haworth, Inc., Solicitation No.     06/29/88
         FCNO-87-B70l-B-1-26-88
A80437   Preaward Audit of Cost or Pricing Data: Premier Chemicals, Inc., Solicitation No.       06/29/88
         10PN -HTS-6149
A80690   Preaward Audit of Multiple Award Schedule Contract: Chas. G. Stott & Co., Inc. (Tho-    06/29/88
         net Industries), Solicitation No. FCNH-88-K609-B
A8069l   Preaward Audit of Multiple Award Schedule Contract: Interior Elements, Inc. (Add In-    06/29/88
         terior), Solicitation No. FCNH-88-K609-B


38
AS0692   Preaward Audit of Multiple Award Schedule Contract: Interior Elements, Inc. (Char-       06/29/88
         lotte Co.l, Solicitation No. FCNH-S8-K609-B
AS0693   Preaward Audit of Multiple Award Schedule Contract: Commerical Office Environ-           06/29/8S
         ments (RoseJohnsonl, Solicitation No. FCNO-S7-B70l-B-I-26-SS
AS0694   Preaward Audit of Multiple Award Schedule Contract: Commercial Office Environ-           06/29/88
         ments (Steelcase Movable Wallsl, Solicitation No. FCNO-87-B70l-B-I-26-S8
AS0695   Preaward Audit of Multiple Award Schedule Contract: Commercial Office Environ-           06/29/88
         ments (Steelcase Series 9000), Solicitation No. FCNO-87-B70l-B-I-26-88
AS037S   Preaward Audit of Multiple Award Schedule Contract: The Hon Company, Solicitation        06/30/88
         No. FNCO-87-B70l-B-I-26-88
AS0434   Preaward Audit of Cost or Pricing Data: Mosler, Inc., Solicitation No. FCNO-8 7 -C803-   06/30/88
         B-3-3-SS
AS051S   Preaward Audit of Multiple Award Schedule Contract: John Fluke Manufacturing Co.,        06/30/88
         Inc., Solicitation No. FCGS-X4-3S011-N-4-12-S8
AS0519   Preaward Audit of New Item Introductory Schedule Contract: Mirachem Corporation,         06/30/88
         Solicitation No. TFTC-SS-ST-NIIS
AS0544   Preaward Audit of Multiple Award Schedule Contract: American Body Armor & Equip-         06/30/88
         ment, Inc., Solicitation No. 7FXG-M3-SS-8411-B
AS0566   Preaward Audit of Multiple Award Schedule Contract: Insulgard Corporation, Solici-       06/30/88
         tation No. 7FXG-M3-88-S411-B
AS0603   Preaward Audit of Multiple Award Schedule Contract: Fargo International, Inc., Solic-    06/30/88
         itation No. 7FXG-M3-8S-84U-B
AS0604   Preaward Audit of Multiple Award Schedule Contract: Protective Group, Inc., Solici-      06/30/88
         tation No. 7FXG-M3-88-8411-B
AS0599   Preaward Audit of Multiple Award Schedule Contract: Bianchi International, Inc., So-     07/11/88
         licitation No. 7FXG-M3-88-8411-B
AS05S0   Preaward Audit of Multiple Award Schedule Contract: 3M Company, Document Sys-            07/12/88
         tems Division, Engineering Systems, Solicitation No. FCGE-B3-75445-N-4-26-88
AS05S1   Preaward Audit of Multiple Award Schedule Contract: Armour of America, Solicitation      07/14/88
         No.7FXG-M3-8S-8411-B
AS0655   Preaward Audit of Multiple Award Schedule Contract: American Science and Engi-           07/14/88
         neering, Inc., Solicitation No. 7FXG-M3-88-8411-B
AS0444   Preaward Audit of Multiple Award Schedule Contract: Penetone Corporation, Solici-        07/15/88
         tation No. 10PN-SPS-6152/8S-06
AS0579   Preaward Audit of Multiple Award Schedule Contract: 3M Company, Document Sys-            07/15/88
         tems, Solicitation No. FCGE-B3-75445-N-4-26-88
AS0572   Preaward Audit of Cost or Pricing Data: Davis Furniture Industries, Inc., Solicitation   07/18/88
         No. FCNO-SI-2021-N-2-10-88
AS0573   Preaward Audit of Cost or Pricing Data: Davis Furniture Industries, Inc., Solicitation   07/20/88
         No. FCNO-S4-2029-N-I0-15-87
AS0696   Preaward Audit of Multiple Award Schedule Contract: Strong Holster, Co., Solicitation    07/20/88
         No.7FXG-M3-88-8411-BC
A70109   Postaward Audit of Multiple Award Schedule Contract: Word Data Systems, Inc., Con-       07/21/88
         tract No. GS-00F-76385
AS0532   Preaward Audit of Multiple Award Schedule Contract: Del Norte Technology, Inc., So-      07/21/88
         licitation No. 7FXG-M3-8S-8411-B
A70220   Postaward Audit of Multiple Award Schedule Contract: Advanced Systems, Inc., Con-        07/22/88
         tract No. GS-00F-77596 for the Period 10/1/85 to 9/30/86
A70221   Postaward Audit of Multiple Award Schedule Contract: Advanced Systems, Inc., Con-        07/22/88
         tract No. GS-00F-69283 for the Period 10/1/84 to 9/30/85


                                                                                                        39
A60287   Postaward Audit of Multiple Award Schedule Contract: Dynatech Laboratories, Incor-            07/25/88
         porated, Contract No. GS-00F-70574
A80781   Review of Claim: Medart, Inc., GSBCA No. 8939, Contract No. GS-00F-76464                      07/26/88
A80592   Preaward Audit of Multiple Award Schedule Contract: Point Blank Body Armor, Inc.,             07/28/88
         Solicitation No. 7FXG-M3-88-8411-B
A80623   Preaward Audit of Multiple Award Schedule Contract: Del Norte Technology, Inc., So-           07/28/88
         licitation No. 7PM-53024/R5I7FX
A80594   Preaward Audit of Multiple Award Schedule Contract: Becton Dickinson Public Safety,           07/29/88
         Ivers-Lee Division, Solicitation No. 7FXG-M3-88-8411-B
A80584   Preaward Audit of Multiple Award Schedule Contract: Astrophysics Research Corpo-              08/01/88
         ration, Solicitation No. 7FXG-M3-88-8411-B
A80469   Preaward Audit of Multiple Award Schedule Contract: Duron, Inc., Solicitation No.             08/03/88
         10PN-ZNS-4249
A80366   Postaward Audit of a Requirement Contract: Xerox Corporation, Contract No. GS-OOF-            08/08/88
         n070
A60589   Postaward Audit of Multiple Award Schedule Contract: Savin Corporation, Contract              08/09/88
         No. GS-00F-n061
A80605   Preaward Audit of Multiple Award Schedule Contract: CMI, Inc., Solicitation No.               08/09/88
         7FXG-M3-88-8411-B
A80576   Preaward Audit of Multiple Award Schedule Contract: American Seating Company, So-             08/12/88
         licitation No. FCNO-87-B 70l-B-1-26-88
A80646   Preaward Audit of Cost or Pricing Data: Systron Donner Corporation, Solicitation No.          08/12/88
         FCGS-X4-38011-N-4-12-88
A80680   Preaward Audit of Multiple Award Schedule Contract: Protective Apparel Corporation        -   08/17/88
         of America, Solicitation No. 7FXG-M3-88-8411-8
A80602   Preaward Audit of Multiple Award Schedule Contract: Rosemount Office Systems, Inc.,           08/22/88
         Solicitation No. FCNO-87-B70l-B-1-26-88
A80821   Postaward Audit of Multiple Award Schedule Contract: Strong Holster, Company, Con-            08/22/88
         tract No. GS-OlF-09932
A80450   Postaward Audit of Multiple Award Schedule Contract: Pacific Instruments, Incorpo-            08/24/88
         rated, Contract No. GS-OOF-78155
A80878   Preaward Audit of Cost or Pricing Data: Boston Whaler, Inc., Solicitation No. 7FXI-F6-        08/24/88
         88-230l-B
A80426   Preaward Audit of Cost or Pricing Data: Whitaker Brothers Business Machines, Inc.,            08/25/88
         Solicitation No. FCGE-A3-75436-N-0l-05-88
A80499   Preaward Audit of Multiple Award Schedule Contract: Hewlett-Packard Company, So-              08/25/88
         licitation No. FCGS-X4-38011-N-4-12-88
A80729   Preaward Audit of Cost or Pricing Data: Artisan Seating International, Solicitation No.       08/25/88
         FCNO-Sl-2021-N-2-10-88
A80699   Preaward Audit of Multiple Award Schedule Contract: Joerns Health Care, Inc., Solic-          09/01/88
         itation No. FCNH-88-K609-B
A80857   Preaward Audit of Multiple Award Schedule Contract: Meridian Instruments, Inc., So-           09/01/88
         licitation No. FCGS-Y5-37007-N-7-7-88
A80702   Preaward Audit of Multiple Award Schedule Contract: Tab Products Co., Solicitation            09/12/88
         No. ·FCNO-87-B70l-B-1-26-88
A80637   Preaward Audit of Multiple Award Schedule Contract: Federal Signal Corporation, So-           09/13/88
         licitation No. 7FXG-M3-88-8411-B
A80647   Preaward Audit of Cost or Pricing Data: Professional Office Products, Solicitation No.        09/13/88
         FCGE-A3-75436-N-0l-05-88
A60287   Advisory Report-Negotiation of Multiple Award Schedule Contract: Dynatech Labo-               09/14/88
         ratories, Incorporated, Contract No. GS-00F-70574
40
AS0745   Preaward Audit of Cost or Pricing Data: Insulgard Corporation, Solicitation No. 7FXG-   09114/88
         M3-S8-S411-B
AS0862   Preaward Audit of Cost or Pricing Data: The Han Company, Solicitation No. FCNO-         09114/88
         S7-B70l-B-1-26-88
AS0493   Preaward Audit of Multiple Award Schedule Contract: Flex-Y-Plan Industries, Inc., So-   09115/88
         licitation No. FCNO-C4-2036-N-10-28-87
AS0583   Preaward Audit of Multiple Award Schedule Contract: Center Core, Inc., Solicitation     09116/88
         No. FCNO-87-B70l-B-1-26-88
AS0601   Preaward Audit of Multiple Award Schedule Contract: ShawlWalker Company, Solici-        09119/88
         tation No. FCNO-87-B70l-B-1-26-88
AS0673   Preaward Audit of Cost or Pricing Data: Dennison Monarch, Inc., Solicitation No.        09119/88
         FCNO-J2-2027 -N -9-22-87
AS0762   Preaward Audit of Multiple Award Schedule Contract: Gun Stuff, Solicitation No.         09123/88
         7FXG-M3-S8-8411-B
AS0636   Preaward Audit of Multiple Award Schedule Contract: Hill-Rom Company, Solicitation      09126/88
         No. FCNH-88-K609-B
AS0918   Preaward Audit of Multiple Award Schedule Contract: Chaselle, Inc., Solicitation No.    09127/88
         7FGX -J3-88-7802-B
AS0035   Postaward Audit of Multiple Award Schedule Contract: Logetronics, Inc., Contract No.    09128/88
         GS-OOF-77305, for the Period 2/1185 to 1I31/S7
AS0906   Preaward Audit of Multiple Award Schedule Contract: Century International Corpo-        09128/88
         ration, Solicitation No. 7FXG-J3-88-7802-B
AS0917   Preaward Audit of Multiple Award Schedule Contract: Atlantic Fitness Products Com-      09129/88
         pany, Solicitation No. 7FXG-J3-8S-7802-B
AS079S   Preaward Audit of Multiple Award Schedule Contract: BSN Sports, Solicitation No.        09/30/88
         7FXG-J3-88-7802-B
AS0811   Preaward Audit of Multiple Award Schedule Contract: Hydra-Fitness Industries, Solic-    09/30/88
         itation No. 7FXG-J3-88-7S02-B
AS0899   Preaward Audit of Multiple Award Schedule Contract: Anaconda-Kaye Sports, Inc.,         09/30/88
         Contract No. 7FXG-J3-88-7802-B


FSS      In ternal A udi ts
AS0387   Hotline Complaint No. HL-88-0l79: Review of GSA Federal Supply Service Fleet Man-       04127/88
         agement Conferences in Region 4
A80445   Review of Inventory of Sensitive Items, Western Distribution Center, StocktOn, Cali-    06114/88
         fornia
AS0267   Review of the Northeast Customer Supply Center Operations, Belle Mead, New Jersey       06115/88
A70474   Review of the Santa Maria Fleet Management Center, Region 9                             07119/88
AS0615   Review of Security Measures Taken to Safeguard Government Vehicles at GSA's Rari-       07119/88
         tan Depot
A70474   Review of the San Diego Fleet Management Center, Region 9                               07120/88
A70474   Review of the San Francisco Fleet Management Center, Region 9                           07121/88
A70474   Review of the Centralized Maintenance Control Center, Region 9                          07121188
AS0753   Price and Quality Comparison, Customer Service Center and a Discount Office Supply      07/21188
         Store
A70474   Review of the Regional Management of Fleet Operations, Region 9                         07125/88
AS0029   Review of Contract Administration Branch, Federal Supply Service, Region 9              08111188
AS0662   Review of the Personal Property Donation Program at the Nebraska State Agency for       08/18/88
         Surplus Property
                                                                                                       41
A7076S   Review of Customer Supply Center, Hickam Air Force Base, Hawaii                           08/24/88
A80166   Review of Multiple Award Schedule Procurements of Building Interior Fixtures              09/23/88


IRMS     Contract Audits
A80200   Preaward Audit of Multiple Award Schedule Pricing Proposal: Rolm Mil-Specs Com-           04/11188
         puters, Solicitation No. GSC-KESO-C-00036-N-4-8-87
A80320   Preaward Audit of Multiple Award Schedule Contract: Bridge Communications, Inc.,          04/11188
         Solicitation No. GSC-KESS-B-00038-N-11-24-87
A8020S   Preaward Audit of Cost or Pricing Data: Falcon Microsystems, Inc. (Wyse), Solicitation    04/13/88
         No. GSC-KESS-B-00037-N-11-18-87
A80207   Preaward Audit of Cost or Pricing Data: Falcon Microsystems, Inc. (Altos), Solicitation   04/13/88
         No. GSC-KESS-B-00037-N-11-18-87
A80448   Preaward Audit of Multiple Award Schedule Pricing Proposal: Datatape Incorporated,        04/13/88
         Solicitation No. GSC-KESR -00046-N -12-01-8 7
A80349   Preaward Audit of Multiple Award Schedule Contract: Microdyne Corporation, Solic-         04/1S/88
         itation No. GSC-KESR-00046-N-12-01-87
A80487   Review of Proposal for Initial Pricing Under RFP No. KECA-87-017: Science Systems         04/19/88
         and Applications, Inc., Seabrook, Maryland
A80206   Preaward Audit of Cost or Pricing Data: Falcon Microsystems, Inc. (Sequent), Solici-      04/20/88
         tation No. GSC-KESS-B-00037-N-11-18-87
A80222   Audit of Termination Proposal: SASC Services, Inc., Task Order No. R84DOOBSA, Con-        04/22/88
         tract No. GSOOK86AFD2328
A80402   Preaward Audit of Cost or Pricing Data: Falcon Microsystems, Inc. (Peripherals), Solic-   04/2S/88
         itation No. GSC-KESS-G-0003 7-N -11-24-87
A70684   Postaward Audit of Multiple Award Schedule Contracts: Digital Equipment Corpora-          04/26/88
         tion, Contract Nos. GS-00C-03404, GS-00K-8401SS6S7, GS-00K-8S01SS933, and GS-
         OOK -86AGSS669
A80403   Preaward Audit of Cost or Pricing Data: Falcon Microsystems, Inc. (Software), Solici-     04/28/88
         tation No. GSC-KESS-B-00037-N-1l-18-87
A80464   Preaward Audit of Cost or Pricing Data: Temtek, Inc., Solicitation No. GSC-KES-G-         04/28/88
         00038-N -11-24-87
A80483   Review of Proposal for Initial Pricing Under RFP No. KECA -87 -018: Computer Sciences     04/29/88
         Corporation, Applied Technology Company, Falls Church, Virginia
A80484   Review of Proposal for Initial Pricing Under RFP No. KECS-8 7-040: Computer Sciences      04/29/88
         Corporation, Applied Technology Company, Falls Church, Virginia
A802S8   Preaward Audit of Multiple Award Schedule Contract: Tandy/Radio Shack Corporation,        OS/02/88
         Contract No. GSOOK87 AGS6001
A80319   Preaward Audit of Multiple Award Schedule Contract: Ungerman-Bass, Inc., Solicita-        OS/02/88
         tion No. GSC-KES-G-00038-N-11-24-87
A80481   Review of Proposal for Initial Pricing Under RFP No. KECA-87-019: Chrysler Corpo-         OS/02/88
         ration, Pentastar Support Services, Incorporated, Huntsville, Alabama
A80482   Review of Proposal for lni tial Pricing Under RFP No. KECA -87 -01S: Planning Research    OS/02/88
         Corporation, Systems Services Division, McLean, Virginia
A80S33   Postaward Audit of Cost Claimed: Martin Marietta Data Systems, Contract No. GS-           OS/03/88
         09F-SOO7, Task Order No. 9K8-6-E412
A80480   Evaluation of Price Proposal Under RFP No. KECA-87-01S: OAO Corporation, Infor-           OS/04/88
         mation Systems Division, Greenbelt, Maryland
A80S64   Preaward Audit of Subcontractor Proposal to Contel, Inc., for Initial Pricing Under RFP   OS/06/88
         No. KETN-MS-87-03: Arthur Young & Company


42
A80476   Preaward Audit of Cost or Pricing Data: Computer Data Systems, Inc., RFP No. KECA-       OS/12/88
         87-01S
A80479   Preaward Audit of Cost or Pricing Data: OAO Corporation, RFP No. KECA-87-018             OS/12/88
A80488   Preaward Audit of Cost or Pricing Data: OAO Corporation, RFP No. KECA-87-014             OS/12/88
A80489   Preaward Audit of Cost or Pricing Data: Computer Data Systems, Inc., RFP No. KECA-       OS/12/88
         87-014
A80S6S   Estimating System Survey: PRC/System Services Group, Field Services Division, RFP        OS/12/88
         No. KECA-87-01S
A80344   Preaward Audit of Multiple Award Schedule Contract: Dictaphone Corporation, Solic-       OS/13/88
         itation No. GSC-KESR-0004S-N-1l-24-87
A80383   Preaward Audit of Multiple Award Schedule Contract: Alden Electronics, Inc., Solici-     OS/17/88
         tation No. GSC-KESCR-00046-N-12-01-87
A80477   Preaward Audit of Cost or Pricing Data: Computer Data Systems, Inc., RFP No. KECA-       OS/17/88
         87-040
A80478   Preaward Audit of Cost or Pricing Data: Computer Data Systems, Inc., RFP No. KECA-       OS/17/88
         87-018
A80219   Preaward Audit of Cost or Pricing Data: EDP Systems, Inc., d/b/a ESI, Solicitation No.   OS/20/88
         GSC-OIT-7094
A80616   Preaward Audit of Multiple Award Schedule Contract: Microcom Corporation, Solici-        OS/23/88
         tation No. GSC-KESR-00046-N-12-01-87
A80S23   Preaward Audit of Multiple Award Schedule Contract: Boole & Babbage, Incorporated,       OS/2S/88
         I-Year Renewal Option of GSA Contract, Contract No. GS-00K-87-AGS-S843
A80124   Audit of Termination Proposal: MBI Business Centers, Inc., Contract No. GS-00K-83-       OS/31/88
         02C-2749
A80138   Preaward Audit of Cost or Pricing Data: Contel-ASC, RFP No. KETN-MS-87-03                OS/31/88
A70664   Postaward Audit of Multiple Award Schedule Contract: Motorola Computer Systems,          06/09/88
         Inc. (Formerly Four Phase Systems), Contract No. GS-00K-86-AGS-S748
A80411   Preaward Audit of Cost or Pricing Data: C3, Incorporated, Solicitation No. GSC-KESS-     06/10/88
         B-00037 -N-1l-18-87
A80SS1   Preaward Audit of Multiple Award Schedule Contract: North Supply Company, Solici-        06/10/88
         tation No. GSC-KESR-00048-N-04-19-88
A80628   Preaward Audit of Cost or Pricing Data: Pacific Advanced Engineering, Incorporated,      06/10/88
         Solici tation No. GSC-KESR -00046-N -12-1-87
A80S60   Preaward Audit of Multiple Award Schedule Contract: Northern Telecom, Inc., Solici-      06/14/88
         tation No. GSC-KESO-C-00039-N-4-13-88
A80SS3   Preaward Audit of Multiple Award Schedule Contract: Input Output Computer Ser-           06/17/88
         vices, Inc., Solicitation No. GSC-KESO-C-00039-N-4-13-88
A803S2   Preaward Audit of Cost or Pricing Data: Centel Information Systems, Inc., Zilog/Iicon    06/20/88
         Product Line, Solicitation No. GSC-KESS-B-00037-N-1l-18-87
A80189   Postaward Audit of Multiple Award Schedule Contract: International Data Sciences,        06/22/88
         Inc., Contract No. GSOOK8SAGSS016 and Renewal for the Period 4/1/8S to 3/31/88
A8048S   Preaward Audit of Cost or Pricing Data: Systems and Applied Sciences Corporation,        06/22/88
         RFP No. KECA-87-019
A80491   Preaward Audit of Cost or Pricing Data: Synetics, Inc., RFP No. KECA-87-016              06/22/88
A806S1   Preaward Audit of Cost or Pricing Data: Centel Communication Systems, Contract           06/22/88
         No. GS-00C-70029
A80676   Preaward Audit of Cost or Pricing Data: Vanguard Technologies International, Inc., RFP   06/22/88
         No. KECA-88-002
A80687   Preaward Audit of Cost or Pricing Data: CRC Systems, Inc., RFP No. KECA-88-002           06/22/88


                                                                                                        43
A80517   Preaward Audit of Multiple Award Schedule Contract: Motorola, Inc., Communica-          06128/88
         tions Sector, Solicitation No. GSC-KESV-00049-N-4-21-88
A80578   Preaward Audit of Multiple Award Schedule Contract: Audio Intelligence Devices, So-     06/30/88
         licitation No. GSC-KESV-00049-N-4-21-88
A80627   Preaward Audit of Multiple Award Schedule Contract: Metier Management Systems,          06/30/88
         Inc., Solicitation No. GSC-KESO-C-00039-N -4-13-88
A80736   Preaward Audit of Cost Data: Integrated Software Technologies, Incorporated, Solici-    07105/88
         tation No. GSC-OIT-7007
A80514   Preaward Audit of Multiple Award Schedule Contract: Electronic Associates, Inc., So-    07106/88
         licitation No. GSC-KESO-C-00039-N-4-13-88
A80539   Preaward Audit of Cost or Pricing Data: Centel Information Systems, Inc., Convergent    07107/88
         Technologies Product Line, Contract No. GSC-KESS-B-00037-N-1l-18-87
A80540   Preaward Audit of Cost or Pricing Data: Centel Information Systems, Inc., Tempest       07107/88
         Product Line, Contract No. GSC-KESS-B-00037-N-1l-18-87
A80554   Preaward Audit of Multiple Award Schedule Contract: Henco Software, Inc., Solicita-     07107/88
         tion No. GSC- KESO-C-00039-N -4-13-88c
A80760   Preaward Audit of Cost or Pricing Data: PRC Systems Services Company, RFP No.           07107/88
         KECP-88-002
A80761   Preaward Audit of Cost or Pricing Data: CRC Systems, Inc., RFP No. KECA-88-003          07107/88
A80543   Preaward Audit of Multiple Award Schedule Contract: NCR Corporation, Solicitation       07108/88
         No. GSC-KESO-C-00039-N-4-13-88
A80744   Postaward Audit of Multiple Award Schedule Contract: NCR Corporation, Contract          07108/88
         No. GSOOK88AGS5936 for the Period 1011/87 to 9/30/88
A80585   Preaward Audit of Multiple Award Schedule Contract: DSC Granger Associates, Inc.,       07/11188
         Solicitation No. GSC-KESV-00049-N-4-21-88
A80490   Preaward Audit of Cost or Pricing Data: Systems and Applied Sciences Corporation,       07112/88
         RFP No. KECA-87-0l4
A80524   Preaward Audit of Multiple Award Schedule Contract: Momentum Systems Corpora-           07115/88
         tion, Solicitation No. GSC-KESO-C-00039-N-4-13-88
A80537   Preaward Audit of Cost or Pricing Data: Network Strategies, Inc., Subcontractor to      07115/88
         Centel Business Information Systems, Inc., RFP No. KETN-MS-87-03
A80600   Preaward Audit of Multiple Award Schedule Contract: Cincom Systems, Inc., Solici-       07120/88
         tation No. GSC-KESO-C-00039-N-4-13-88
A80611   Preaward Audit of Multiple Award Schedule Contract: Plexus Computers, Inc., Solici-     07120/88
         tation No. eSC-KESO-C-00039-N-4-13-88
A80777   Postaward Audit of Multiple Award Schedule Contract: Cincom Systems, Inc., Con-         07120/88
         tract No. GSOOK86AGS5536 Option Year 2, for the Period 1011187 to 9130/88
A80486   Preaward Audit of Cost or Pricing Data: P. E. Systems, RFP No. GSA-00K87 AeS5381        07/21188
A80809   Preaward Audit of Cost or Pricing Data: Racal Communications, Inc., RFP No. esc-        07121/88
         KESV-00049
A80810   Accounting System Survey: CRC Systems, Inc., RFP No. KECA-88-003                        07121188
A80555   Preaward Audit of Multiple Award Schedule Contract: Itek Graphix, Inc., Composition     07122/88
         Systems Division, Solicitation No. GSC-KESO-C-00039-N-4-13-88
A80709   Preaward Audit of Cost or Pricing Data: Martin Marietta Data Systems, RFP No. esc-      07126/88
         OIT-7007
A80713   Preaward Audit of Cost or Pricing Data: Booz, Allen & Hamilton, Inc., RFP No. esc-      07126/88
         OIT-7007
A80667   Preaward Audit of Multiple Award Schedule Contract: Floating Point Systems, Inc., So-   07127/88
         licitation No. GSC-KESO-C-00039-N-4-13-88


44
A80516   Preaward Audit of Multiple Award Schedule Contract: NEI, Inc., Solicitation No. GSC-      07/28/88
         KESO-C-00039-N -4-13-88
A80462   Preaward Audit of Multiple Award Schedule Contract: Wang Laboratories, Inc., Solici-      07/29/88
         tation No. GSC- KESO-C-00039-N -4-13-88
A80669   Preaward Audit of Multiple Award Schedule Contract: Cycomm Corporation, Solici-           08/01/88
         tation No. GSC-KESV -00049-N -4-21-88
A80650   Preaward Audit of Multiple Award Schedule Contract: Racal Survey, Inc., Solicitation      08/02/88 '
         No. GSC-KESV-00049-N-4-21-88
A80516   Postaward Audit of Multiple Award Schedule Contract: NEI, Inc., Contract No. GS-          08/08/88
         OOK -88AGS5922
A80527   Preaward Audit of Multiple Award Schedule Contract: Philips Information Systems,          08/08/88
         Inc., Solicitation No. GSC-KESO-C-00039-N-4-13-88
A80710   Preaward Audit of Cost or Pricing Data: Hadron, Incorporated, RFP No. GSC-OIT-7007        08/08/88
A80714   Preaward Audit of Cost or Pricing Data: Barrios Technology, Inc., RFP No. GSC-OIT-        08/08/88
         7007
A80522   Preaward Audit of Multiple Award Schedule Contract: Cullinet Software, Inc., Solici-      08/09/88
         tation No. GSC-KESO-C-0039-N-4-13-88
A80343   Preaward Audit of Cost or Pricing Data: Compucom Systems, Inc., Solicitation No.          08/10/88
         GSC-KESS-B-00037-N-1l-18-87
A80538   Preaward Audit of Cost or Pricing Data: Portability Solutions, Inc., RFP No. GSC-OIT-     08/10/88
         8012
A80457   Postaward Audit of Multiple Award Schedule Contract: NBI, Inc., Contract No. GS-          08/11/88
         00K-8401S5652
A80457   Postaward Audit of Multiple Award Schedule Contract: NEI, Inc., Contract No. GS-          08/11/88
         OOK -8501 S5901
A80711   Preaward Audit of Cost or Pricing Data: Presearch, Incorporated, RFP No. GSC-OIT-         08/12/88
         7007
A80574   Preaward Audit of Multiple Award Schedule Contract: Computer Consoles, Inc., Solic-       08/17/88
         itation No. GSC-KESO-C-00039-N-4-13-88
A80635   Preaward Audit of Multiple Award ·Schedule Contract: Network Systems Corporation,         08/22/88
         Solicitation No. GSC-KESO-C-00039-N-4-13-88
A80563   Preaward Audit of Cost or Pricing Data: Household Data Services, Inc., Solicitation No.   08/23/88
         GSC-KESV -00049-N-4-21-88
A80712   Preaward Audit of Cost or Pricing Data: System Automation Corporation, RFP No.            08/23/88
         GSC-OIT-7007
A80757   Audit of R&E Electronics, Inc.: Claim for Sales and Use Taxes                             08/23/88
A80196   Postaward Audit of Multiple Award Schedule Contract: Motorola Computer Systems,           08/24/88
         Inc., (Formerly Four Phase SystemsL Contract No. GS-00K-84-0IS-5539
A80197   Postaward Audit of Multiple Award Schedule Contract: Motorola Computer Systems,           08/24/88
         Inc., (Formerly Four Phase Systems), Contract No. GS-00K-85-OlS-5975 for the Period
         01123/85 to 01/14/86
A80198   Postaward Audit of Multiple Award Schedule Contract: Motorola Computer Systems,           08/24/88
         Inc., Contract No. GS-00K-87-AGS-5824 for the Period 10/01186 to 09/30/87
A80522   Preaward Audit of Multiple Award Schedule Contract: System Industries, Inc., Solici-      08/24/88
         tation No. GSC- KESO-C-00039-N -4-13-88
A80641   Preaward Audit of Multiple Award Schedule Contract: Tektronix, Incorporated, Solic-       08/24/88
         itation No. GSC-KESO-C-00039-N-4-13-88
A80666   Preaward Audit of Multiple Award Schedule Contract: CPT Corporation, Solicitation         08/24/88
         No. GSC-KESO-C-00039-N -4-13-88


                                                                                                          45
A80633   Preaward Audit of Multiple Award Schedule Contract: Plantronics, Incorporated, So-      08/25/88
         licitation No. GSC-KESR -00048-N -04-19-88
A80883   Preaward Audit of Multiple Award Schedule Contract: GAI-Tronics Corporation, Solic-     08/25/88
         itation No. GSC-KESR-00048-N-4-19-88
A80629   Preaward Audit of Multiple Award Schedule Contract: Panafax Corporation, Solicita-      08/26/88
         tion No. GSC- KESR -00048-N -4-19-88
A80610   Preaward Audit of Multiple Award Schedule Contract: Computer Associates Int'I., Inc.,   09/02/88
         Solicitation No. GSC-KESO-C-00039-N-4-13-88
A80734   Preaward Audit of Multiple Award Schedule Contract: Interleaf, Inc., Solicitation No.   09/02/88
         GSC-KESO-C-00039-N-4-13-88
A8071S   Preaward Audit of Cost or Pricing Data: Peat Marwick Main & Co., Solicitation No.       09/13/88
         GSC-OIT-7007
A80720   Preaward Audit of Cost or Pricing Data: CACI, Inc., Solicitation No. GSC-OIT-7007       09/13/88
A80722   Preaward Audit of Cost or Pricing Data: Systems and Applied Sciences Corporation,       09/13/88
         Solicitation No. GSC-OIT-7007
A80606   Preaward Audit of Cost or Pricing Data: Denro, Inc., Solicitation No., GSC-KESV-        09/14/88
         00049-N-4-21-88
A80721   Preaward Audit of Cost or Pricing Data: Electrospace Systems, Inc., Solicitation No.    09/14/88
         GSC-OIT-7007
A80S91   Preaward Audit of Multiple Award Schedule Contract: Loral Terracom, Solicitation No.    09/15/88
         GSC-KESV-00049-N-4-21-88
A80704   Preaward Audit of Multiple Award Schedule Contract: Symbolics, Inc., Solicitation No.   09/15/88
         GSC-KESO-C-00039-N -4-13-88
A80S93   Preaward Audit of Multiple Award Schedule Contract: Xerox Corporation, Solicitation     09/19/88
         No. GSC-KESO-C-00039-N -4-13-88
A80977   Preaward Audit of Cost or Pricing Data: S.T. Research Corporation, RFP No. GSC-         09/19/88
         KESR -00046-N -12-0? -87
A80723   Preaward Audit of Cost or Pricing Data: Stephens Engineering Company, Incorporated,     09/21/88
         Solicitation No. GSC-OIT-7007
A8081S   Preaward Audit of Multiple Award Schedule Contract: Duquesne Systems, Inc., Solic-      09/21/88
         itation No. GSC-KESO-C-00039-N -4-13-88
A808S1   Preaward Audit of Cost or Pricing Data: International Data Corporation, Solicitation    09/21/88
         No. GSC-KESO-C-00039-N -4-13-88
A802S7   Postaward Audit of Multiple Award Schedule Contract: Telex Computer Products, Inc.,     09/22/88
         Contract No. GSOOK86AGSS687
A80471   Postaward Audit of Multiple Award Schedule Contract: Telex Computer Products, Inc.,     09/22/88
         Contract No. GSOOK86AGSS614
A80S07   Preaward Audit of Multiple Award Schedule Contract: Datapoint Corporation, Solici-      09/22/88
         tation No. GSC-KESO-C-00039-N-4-13-88
A80624   Preaward Audit of Multiple Award Schedule Contract: Del Norte Technology, Inc., So-     09/22/88
         licitation No. GSC-KESV-00049-N-4-21-88
A80S08   Preaward Audit of Multiple Award Schedule Contract: Harris Data Communications,         09/23/88
         Solicitation No. GSC-KESO-C-00039-N-13-88
A80807   Preaward Audit of Cost or Pricing Data: Time and Space Processing, Inc., Solicitation   09/23/88
         No: GSC-KESR-00048-N-04-19-88
A80640   Preaward Audit of Multiple Award Schedule Contract: Mitel, Inc., Solicitation No.       09/30/88
         GSC-KESR -00048-N -04-19-88
A80717   Preaward Audit of Cost or Pricing Data: Arthur Andersen & Co., Solicitation No. GSC-    09/30/88
         OIT-700?
A80941   Preaward Audit of Cost or Pricing Data: Integrated Microcomputer Systems, Inc., Sub-    09/30/88
         contractor to Peat Marwick Main & Co., Solicitation No. GSC-OIT-7007
46
A80942   Preaward Audit of Cost or Pricing Data: Electronic Data Systems Corporation, Solici-    09/30/88
         tation No. GSC-OIT-7007



IRMS     Internal Audits
A80256   Review of Accountability Over Residual Stock Items at the Information Security Man-     06/07/88
         agement Division, Kansas City, Missouri
A80700   Review of Complaint Concerning Commercial Pricing Practices of Computer Associ-         08/19/88
         ates International, Inc., Contract No. GS-00K88AGS5950
A80290   Review of Security and Safety at the IRMS Computer Facility                             09/30/88



Other    Contract Audits
A70589   Audit of Compliance with the Excess Profits Clause, Covenant to the Deed, for Hog       05/12/88
         Island, Hull, Massachusetts



Other    Internal Audits
A80350   Review of Security Over Sealed Bids, Business Service Center, San Francisco, Califor-   04/19/88
         nia, Region 9
A70756   Review of GSA Billings to the Federal Emergency Management Agency (FEMA)                04/22/88
A80172   Review of the Regional Imprest Fund, New York, New York                                 04/28/88
A80595   Review of Imprest Fund, Chicago Fleet Management Center, Region 5                       06/09/88
A70702   Review of Controls Over Consulting Services Contracts for Fiscal Year 1987              06/24/88
A80642   Review of Imprest Fund, Milwaukee Field Office, Region 5                                07/11/88
A80677   Review of Region 4's Administration of Excess Profits Requirements in Negotiated        07/19/88
         Sales
A80756   Review of the Imprest Fund at the Greater Manhattan Buildings Management Field Of-      07/28/88
         fice, 252 7th Avenue, New York, NY
A80371   Review of National Payroll Center's Processing of Health Benefits Insurance Forms       08/02/88
A80683   Review of Imprest Fund, Springfield Field Office, Region 5                              08/05/88
A80372   Review of Fedpay Cash Discounts                                                         08/08/88
A80850   Review of Time and Attendance Practices of the Personnel Division, Office of            08/10/88
         Administration
A80881   Review of Imprest Fund: Miami Field Office, Region 4                                    08/30/88
A80002   Review of Controls Over Payments Made by the Credit Card Accounts Payable System        09/01/88
A80755   Review of Imprest Fund: Cadman Plaza Buildings Management Field Office, Brooklyn,       09/01/88
         New York
A80284   Review of Region 4 ORES Disposal of GSA Buildings                                       09/08/88
A70727   Review of Real Property Disposals, Region 9                                             09/15/88
A80587   Review of Imprest Fund and Travelers Checks, National Capital Region                    09/15/88
A80645   Review of Imprest Fund Activities, Public Building Service, Suitland, Maryland          09/15/88
A80664   Review of the Imprest Fund and Travelers Check Operations, Information Resources        09/15/88
         Management Service, Falls Church, Virginia
A80644   Review of Imprest Fund, Federal Systems Integration and Management Center, Falls        09/20/88
         Church, VA
A80886   Reviews of Imprest Funds, Information Resources Management Service                      09/21/88
                                                                                                        47
A80367   Review of Excess Profits in Real Property Disposal                                    09122/88
A80456   Review of Time and Attendance Practices, Region 7                                     09122188
A80456   Review of Time and Attendance Practices, Public Buildings Service, Fort Worth Field   09122/88
         Office, Region 7
A80456   Review of Time and Attendance Practices, Region 7 Activities Located in Region 8      09122/88
A80459   Review of the Imprest Fund and Travelers Check Activities, Federal Supply Service,    09122/88
         Crystal City
A80825   Review of Imprest Fund Operations, Public Buildings Service Field Office, 215 North   09/23/88
         17th Street, Omaha, Nebraska
A80510   Review of Controls Over Open Market Procurement: Copier Service Call Maintenance      09126188
         Charges
A80886   Reviews of Imprest Fund Operations and Travelers Check Activities                     09126/88
A80368   Review of Imprest Fund, Fleet Management Sub center, Farmington, New Mexico           09129/88
A80470   Review of the Imprest Funds, Personal Property Center, Franconia, Virginia            09/29/88
A80739   Review of ADP Fund, Leased Equipment Subsidiary Ledger                                09129/88


Non-     Internal Audits
GSA
A80416   Review of Procurement Practices at the U.S. Merit Systems Protection Board            05/12/88
A80415   Review of the Administrative Procedures of the National Council on the Handicapped    05126/88
A80443   Review of the Administrative Procedures of the Committee for Purchase from the        06/10/88
         Blind and Other Severely Handicapped
A80535   Review of the Administrative Procedures of the National Capital Planning              06124/88
         Commission
A80534   Review of the Administrative Procedures of the Commission on the Ukraine Famine       08/05/88
A80782   Review of the Administrative Procedures of the Japan-United States Friendship         09/16/88
         Commission




48
APPENDIX II-DELINQUENT DEBTS

GSA's Office of Comptroller provided the information                     management. These activities included the following:
presented herein.
                                                                           •      Revised procedures for forwarding delinquent ac-
                                                                                  counts to collection agencies were implemented. As
                                                                                  of September 30, 1988, 681 delinquent accounts,
                                                                                  valued at approximately $966,000, had been re-
                                                                                  ferred for collection.
GSA Efforts to Improve Debt
                                                                              •   Procedures and processes were implemented
Collection                                                                        whereby all GSA non-Federal debts may be paid by
                                                                                  credit card, rather than only by check, except for
                                                                                  excess employee travel advances. Procedures relat-
                                                                                  ing to travel advances are scheduled for implemen-
During the period April 1, 1988 through September 30,                             tation during October 1988.
1988, GSA efforts to improve debt collection and reduce
the amount of debt written off as uncollectible focused                       •   Three mortgages valued at approximately $95,000
on upgrading collections functions and enhancing debt                             were paid off.



Non..Federal Accounts Receivable

                                                                    As of                  As of
                                                                 April 1, 1988       September 30, 1988           Difference

     Total Amounts Due GSA ............................ .         $41,497,819              $40,843,926             $(653,893)
     Amount Delinquent ..................................... .    $15,402,376              $15,394,070             $ (8,306)

     Total Amount Written Off as Uncollectible
       Between 4/1/88 and 9/30/88 ................... .            $508,609


Of the total amounts due GSA and the amounts delin-                      $10.1 million and $9.4 million,     respectivel~   are beif,lg
quent as of April 1, 1988 and September 30, 1988,                        disputed.




                                                                                                                                   49
APPENDIX III-SUMMARY OF OIG PERFORMANCE
DURING FISCAL YEAR 1988

During Fiscal Year 1988, OrG activities resulted in:          •   Civil complaints against 3 individuals and 17 civil
                                                                  settlements and judgments.
  •   889 audit reports.
                                                              •   17 referrals to other Federal and State agencies for
  •   39 implementation reviews of internal audit                 further investigation.
      reports.
                                                              •   36 reprimands, 11 suspensions, 2 demotions, and 11
  •   Recommended cost avoidances and recoveries of               terminations of GSA employees.
      over $346 million.
                                                              •   14 case referrals recommending suspension of 53
  •   Management commitments to more efficiently use              contractors.
      over $152 million.
                                                              •   22 case referrals recommending debarment of 83
  •   Management commitments to recover funds, vol-               contractors.
      untary recoveries, court-ordered recoveries, and in-
      vestigative recoveries of almost $11 million.           •   36 contractor suspensions and 60 contractor
                                                                  debarments.
  •   459 new investigations opened and 365 cases
      closed.                                                 •   45 orG subpoenas.
  •   39 case referrals (81 subjects) accepted for criminal   •   446 legislative matters and 20l regulations and di-
      prosecution and 8 case referrals (9 subjects) ac-           rectives reviewed.
      cepted for civil litigation.
                                                              •   554 Hotline calls and letters, 6 GAO referrals, and
  •   39 criminal indictmentslinformations/complaints             37 other agency referrals.
      and 36 successful prosecutions on criminal mat-
      ters referred.




50
